<html>
<title> - PAKISTAN: CHALLENGES FOR U.S. INTERESTS</title>
<body><pre>[Senate Hearing 114-723]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-723

       INSERT TITLE HEREPAKISTAN: CHALLENGES FOR U.S. INTERESTS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE


                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 8, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web:
                        http://www.fdsys.gpo.gov
                        
                        
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
27-233 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9cfbecf3dcffe9efe8f4f9f0ecb2fff3f1b2">[email&#160;protected]</a>                      
                        


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
              Rob Strayer, Majority Chief Counsel        
            Margaret Taylor, Minority Chief Counsel        
                    John Dutton, Chief Clerk        


                              (ii)        

  

                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2

Dalton, Dr. Toby, co-director, Nuclear Policy Program, Carnegie 
  Endowment for International Peace, Washington, DC..............     4
    Prepared statement...........................................     6

Markey, Dr. Daniel, senior research professor, international 
  relations, academic director, Global Policy Program, School of 
  Advanced International Studies, Johns Hopkins University, 
  Washington, DC.................................................    10
    Prepared statement...........................................    12
    Responses to Additional Questions for the Record Submitted to 
      Dr. Daniel Markey by Senator Rubio.........................    38

Grenier, Robert L., chairman, ERG Partners, Washington, DC.......    16
    Prepared statement...........................................    19




                             (iii)        

  

 
                PAKISTAN: CHALLENGES FOR U.S. INTERESTS

                              ----------                              


                      THURSDAY, SEPTEMBER 8, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, 
Gardner, Perdue, Cardin, Menendez, Shaheen, Murphy, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman.  The Foreign Relations Committee will come to 
order.
    We thank our witnesses for being here, and I want to thank 
our ranking member for continual cooperation and making sure 
that these hearings go off as appropriate.
    I gave some longwinded opening comments yesterday. So I am 
not going to do that today. I will just generally outline the 
fact that our relationship with Pakistan has been very 
complicated. I think we have gone through a period of time 
where we both viewed our relationship as very transactional. We 
went through a period of time where we tried to change that and 
deal with Pakistan in a different manner and to create a more 
whole relationship with them. And from my standpoint, that has 
not been very successful.
    We have expended about $33 billion of U.S. taxpayer dollars 
towards Pakistan since the early 2000s. I think we have 
probably all been to the FATA areas and see the expense, 
actually tremendous progress that was made there with U.S. 
dollars with electricity and roads coming in to really cause 
those areas not to be as fertile, if you will, for terrorists. 
And I am being a little bit cutting to the chase in saying 
this, but whereas at one time we were using our drones to 
ferret out terrorists in that region, what ultimately happened 
was they moved to the suburbs of Pakistan and they are now 
getting medical care. The Haqqani Network leadership has been 
living there. The Government of Pakistan knows where they live. 
And what, in essence, has happened is where we used to be able 
to take them out, to be somewhat crude, in the FATA areas, now 
that they are living in the suburban areas, we cannot do that. 
As a matter of fact, they have safe haven there.
    They are the number one killers of U.S.--or attempted 
killers of U.S. soldiers in Afghanistan. It has been of 
tremendous concern to our leadership there that we have this 
policy where, in effect, we are working with Pakistan and yet 
the extreme duplicity that exists with the relationship is that 
on one hand they say they want to see a stable Afghanistan. On 
the other hand, they are harboring people and through their own 
proxies are destabilizing Afghanistan.
    So I thank our witnesses for being here. It is a very 
frustrating relationship, and working with others on the 
committee, I think you all know we have put a hold on resources 
relative to the acquisition of F-16's, which I think is 
appropriate. I think all of us are becoming more and more 
frustrated with our relationship, and I am sure we are going to 
hear some pros and cons today. But we thank you for being here 
to help us more fully understand how we need to go forward in 
our relationship there.
    So with that, I will turn it over to our distinguished 
ranking member, Senator Ben Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Chairman Corker, when you indicate 
that our relationship with Pakistan is complicated, that might 
be the understatement of the day. This is very challenging, the 
relationship with Pakistan. It is one of our strategic partners 
in our counterterrorism in a very dangerous part of the world. 
We look at Pakistan's borders with China, Afghanistan, Iran, 
India. And they have been effective in working with the United 
States in dealing with Al Qaeda in Pakistan. So it is a 
strategic partner in our war against terror.
    But as you point out, we have major concerns about that 
relationship. They seem to be very selective in the terrorist 
organizations that they go against. And the Haqqani Network, as 
you point out, has had too much freedom in that country. The 
LeT and its impact on India and our relationships in that 
region is also a matter of major concern. So we have problems 
in our relationship with Pakistan.
    This is a very timely hearing and I thank you very much for 
calling it.
    We went through a discussion in regards to a potential arms 
sale, F-16's, to Pakistan. And as you and I both know and 
members of this committee, that was very complicated, and there 
were many factors engaged in our discussions. And quite 
frankly, we did not think we had all the information we needed, 
and I think this hearing will help us to fill in some of those 
blanks as to how we are going to move forward in the 
relationship with Pakistan.
    We also know that it is a country in which its military 
leadership plays a very important role, and there is a 
scheduled change in their military leadership this month. So it 
will be interesting to see how that impacts on this 
relationship.
    In 2018, they have their parliamentary elections. So a lot 
is going on.
    In addition, at least reports that I have seen, it has if 
not the fastest, one of the fastest growing nuclear arsenals in 
the world. So it is a country of major interest, a strategic 
partner in our war against terror, counterterrorism, to help 
degrade Al Qaeda. Certainly they have done that in the 
Federally Administered Tribal Areas. But they have selectivity 
in how they help in this campaign. In some cases, they have 
been counterproductive to our efforts.
    So the question is how can we use our tools more 
effectively to change the behavior in Pakistan. We do provide, 
as you point out, Mr. Chairman, a significant amount of 
assistance to this country. Is there a better way of doing 
this? We have tried conditionality of aid, but is there a 
better way that we can deal with our relationship and all the 
tools that we use so we can get a more comprehensive partner in 
dealing with the threat of terrorism?
    There are some related issues that I hope we will have a 
chance to talk about that deal with good governance in 
Pakistan, which to me is fundamental to their long-term 
security, maybe even short-term security, promotion of 
democratic institutions, support for international NGOs and 
what they are doing in regards to registration and whether that 
will have an impact on their future development of democratic 
institutions. Their tolerance for religious freedom is a major 
concern, and we welcome thoughts as to how we can be more 
effective in instilling upon the authorities in Pakistan the 
importance for religious tolerance.
    And then we talk about the Federally Administered Tribal 
Areas, and we know there has been a cleansing of much of the 
terrorist organizations there. But what comes next? I have 
heard no real game plan on how that area can be governed. So 
how can we rebuild an area and provide the type of longer-term 
stability that prevents the return of terrorist organizations 
that we may have been effective in the short term in degrading.
    So, Mr. Chairman, this is an extremely important hearing, 
and I thank you very much. And you have brought together a 
distinguished panel, and I look forward to hearing from them.
    The Chairman.  Well, thank you, and I appreciate your 
comments and scene-setting. I will just add to the fact that 
they continue to not do the things in their own country to 
generate revenues to support their own nation. I mean, you sit 
down with the business community there, and it is just a 
fascinating discussion.
    So, look, I do not think I have had a conversation yet with 
leadership on the military side and the ISI side that has not 
been full of duplicity. And I cannot say that enough. Again, I 
just want to reiterate the fact that they know exactly where 
these Haqqani Network leadership members live, they know where 
their families are, when they pass through roadblocks, they 
give them get out of jail free cards. They provide medical 
care. The fact that they are a threat to our Nation and that 
what has, in essence, happened through our policies, they have 
moved it one more time into the suburban areas where we cannot 
get at them, and they are not willing to get at them to me is a 
tremendous problem.
    Our first witness is Dr. Toby Dalton, the Co-Director of 
Nuclear Policy Program at the Carnegie Endowment for 
International Peace in Washington. We thank you so much for 
being here.
    Our second witness is Dr. Daniel Markey, Senior Research 
Professor of International Relations and Academic Director of 
the Global Policy Program at Johns Hopkins University School of 
Advanced International Studies in Washington. We thank you for 
being here.
    And our third witness is Dr. Robert Grenier, a former 
Director of CIA Counterterrorism Center and current Chairman of 
ERG Partners in Washington.
    I think you all understand you can understand your comments 
in about 5 minutes, we hope. Your written testimony, without 
objection, will be entered into the record. And again, we 
cannot thank you enough for being here and helping us with this 
issue today. And if you will just begin and go through in the 
order that I introduced you, I would appreciate it. Thank you.

   STATEMENT OF DR. TOBY DALTON, CO-DIRECTOR, NUCLEAR POLICY 
     PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE, 
                        WASHINGTON, D.C.

    Dr. Dalton. Thank you, Chairman Corker and Ranking Member 
Cardin, both for your leadership on these important issues but 
also for the invitation to appear before the committee today.
    In my remarks, I will try to provide a clear-eyed 
assessment of the challenges to U.S. policy posed specifically 
by developments in Pakistan's nuclear weapons program and what 
they mean for U.S. policy and interests in South Asia.
    I would note that in the testimony I submitted for the 
record, there is a more expansive discussion on these issues, 
including on India's nuclear program, but I'll focus 
specifically on Pakistan today.
    Let me start by outlining two priorities that I believe 
should guide U.S. policy in this regard and then turn to some 
analysis of the challenges.
    The first priority is to prevent the use of nuclear weapons 
which is most likely to occur during a military confrontation. 
Successive U.S. administrations have intervened during serious 
South Asian crises to contain conflict before nuclear weapons 
could be deployed. This is a role that the U.S. should be 
expected to continue.
    The second priority is to maintain the security of nuclear 
weapons and material. The probability of a nuclear terrorist 
incident remains low, but the consequences would be severe both 
locally and globally, with the added concern that in South 
Asia, terrorists might attempt to use nuclear weapons to 
precipitate another war between India and Pakistan.
    These priorities face growing challenges in the region. 
Publicly available information suggests that Pakistan's nuclear 
arsenal may number 120 or more weapons and that over the past 
decade, it expanded significantly the production of fissile 
material such that it could add perhaps 20 nuclear weapons per 
year to its arsenal at full production. Estimates such as this 
yield the common perception that Pakistan has the fastest 
growing nuclear program.
    It is also actively developing a number of short- and long-
range missiles to carry these weapons. One of the newer ones 
that has caused considerable global concern is a battlefield 
missile, the Nasr, which Pakistani Government officials assert 
will carry a low-yield tactical nuclear weapon designed to 
deter India from carrying out conventional military operations 
against Pakistan.
    It is important that we try to understand why Pakistan has 
expanded the size and scope of its nuclear forces. I think 
there are two forces at work here.
    The first is a perceived need to meet an expanding set of 
threats from India. These threats include growth in Indian 
defense spending, development of offensive conventional 
military strategies, a burgeoning Indo-U.S. partnership, an 
expansion of the Indian nuclear weapons program after the 
nuclear deal with the United States. For Pakistan, these 
threats, whether they are real or perceived, provide ample 
justification for its nuclear buildup.
    The second force behind this expansion is I think, for want 
of a better term, the black hole of deterrence logic. And by 
this, I mean that as Pakistan places increasing emphasis on 
nuclear weapons to counter Indian military threats rather than 
conventional arms, nuclear deterrence has become a self-
reinforcing phenomenon. Whenever the Indian threat is perceived 
to grow, it justifies more or new nuclear capabilities. At some 
point, nuclear weapons become a solution in search of a 
problem. Today that means short-range battlefield nuclear 
weapons but who knows where this logic might lead tomorrow.
    South Asia is a region with multiple potential sources of 
conflict, unclear nuclear redlines, and considerable room for 
miscalculation. Political pressure seems to be growing in India 
for a punitive response to the next terror attack attributed to 
Pakistan. Should there be another crisis, the potential speed 
of escalation may not afford the United States much time to 
intervene and attempt to contain the conflict. This 
necessitates that American officials and military officers 
maintain strong working relationships with our counterparts in 
both countries.
    The same is true of efforts to secure nuclear weapons and 
material. And to be fair, I think Pakistan is not given 
sufficient credit for the nuclear security practices it has put 
in place. I think they are probably quite good, although not 
foolproof. The prominence given to nuclear weapons in 
Pakistan's national security strategy means that the government 
has a very strong interest to protect them.
    That said, the frequency and severity of terrorist attacks 
on Pakistani military facilities, including on some thought to 
store nuclear weapons, speaks to a high threat environment. In 
addition to implementing the best possible nuclear security, it 
is also necessary to degrade the capabilities and reach of non-
state groups that might seek to steal or explode a nuclear 
weapon. Thus, U.S. policy cannot focus only on improving 
security. There is necessarily a counterterrorism component as 
well.
    Ideally the United States and others should seek ways to 
convince Pakistan to flatten the growth curve of its nuclear 
program. The honest assessment is, however, that since Pakistan 
embarked on a nuclear weapons program, very little the U.S. has 
tried, whether sanctions or inducements, has had an appreciable 
impact. Recognizing that U.S. options and leverage are limited, 
I think one possible opportunity is to incentivize restraints 
through something like membership in the Nuclear Suppliers 
Group. A process to negotiate benchmarks for membership for 
both India and Pakistan might encourage restraint in their 
nuclear programs.
    In closing, in my analysis, there continues to be a 
profound need for the United States to sustain options to 
mitigate perceived nuclear threats in South Asia. 
Notwithstanding the challenges posed by Pakistan to U.S. 
interests, this means preserving, to the extent possible, 
patterns of cooperation and institutional relationships that 
facilitate U.S. influence.
    Thank you.
    [Dr. Dalton's prepared statement follows:]


                 Prepared Statement of Dr. Toby Dalton

    Thank you, Chairman Corker and Ranking Member Cardin, for the 
invitation to appear before the committee today. The issue you have 
selected--the policy challenge posed by Pakistan for U.S. interests--is 
both timely and important. The U.S.-Pakistan relationship has 
experienced significant highs and lows in recent years. Lamentably, the 
signs now point to more challenging times ahead. I'm pleased to have 
the opportunity to provide some personal views on this issue, noting 
that my employer, the Carnegie Endowment for International Peace, does 
not take institutional positions on policy matters.
    In my remarks today I will try to provide a clear-eyed assessment 
of the challenges to U.S. policy posed specifically by developments in 
Pakistan's nuclear weapons program and what they mean for U.S. 
interests in South Asia. Though obvious, it is worth underscoring the 
point that Pakistan's nuclear weapons program does not exist in a 
vacuum. Nuclear weapons are central to Pakistan's security-seeking 
behavior in a region it considers to be enduringly hostile. From 
Pakistan's perspective, the trend lines are quite negative. India's 
economic growth, blooming strategic relationship with the United 
States, and development of nuclear and advanced conventional military 
capabilities and doctrines have been and will remain drivers of 
Pakistan's nuclear build-up. Experts are therefore understandably 
concerned that the 70-year security competition between India and 
Pakistan is becoming a nuclear arms race, albeit one in which the 
antagonists--unlike the United States and Soviet Union during the Cold 
War--have fought four hot wars, still regularly exchange fire over 
contested territory, and quite possibly sponsor the activities of non-
state actors who project violence across their shared border. 
Considering what we now know of the close calls experienced by U.S. and 
Soviet nuclear forces during the Cold War, the nuclear situation in 
South Asia is cause for concern.
    Any nuclear explosion would have catastrophic consequences, which 
is why it will continue to be in the U.S. interest to sustain an 
ability to mitigate nuclear threats in South Asia even as its role and 
presence in the region evolves. The challenge with Pakistan is how to 
preserve patterns of cooperation and institutional relationships that 
facilitate U.S. influence at a time when Pakistani behavior in other 
spheres may be injurious to U.S. interests.
                            u.s. priorities
    U.S. priorities related to nuclear weapons in South Asia have 
shifted over time. While the United States first sought to prevent the 
development of nuclear weapons in the region, the focus shifted to cap 
and rollback of the Indian and Pakistani nuclear programs after the 
countries' nuclear tests in 1998 and then to ensuring the 
nonproliferation of nuclear weapons and technologies. Today, there are 
two priorities above others that should guide U.S. policy.
    The first priority is the prevention of intentional or inadvertent 
use of nuclear weapons, which is most likely to occur during a military 
confrontation. Successive U.S. administrations intervened with India 
and Pakistan--during the Kashmir crisis in 1990, the Kargil war in 
1999, the crisis in 2001-02, and following the terror attacks in Mumbai 
in 2008--in order to contain conflict before nuclear weapons could be 
deployed. Although the two states have implemented several nuclear and 
military confidence building measures, these are insufficient to temper 
their security competition. And substantial differences in their 
deterrence practices invite the potential for misperception or 
miscalculation.
    Second is to maintain the security of nuclear weapons and materials 
in order to prevent their theft or diversion. This priority has been 
front and center in U.S. global counterproliferation policy since the 
9/11 attacks, resulting in efforts such as the Global Initiative to 
Combat Nuclear Terrorism and the Nuclear Security Summits. The 
probability of a nuclear terrorist incident is low, but the 
consequences would be severe, both locally and globally, with the added 
concern that in South Asia, terrorists might attempt to use nuclear 
weapons to precipitate another Indo-Pak war.
    The challenges inherent in these priorities continue to grow in 
complexity. Increases in fissile material stocks compound the 
difficulty of implementing effective and strong nuclear security 
practices.Changes in nuclear posture toward greater readiness and 
possible deployment especially of tactical nuclear weapons raise 
concerns about security and command and control. Evolving nuclear and 
conventional military strategies and postures pose greater risks of 
rapid conflict escalation. And violent nonstate actors have targeted 
government and military facilities; some of the same groups have 
expressed interest in nuclear weapons. To be clear: these are 
challenges that derive not just from conditions in Pakistan, but also 
in India, China, and even the United States. My focus will be more on 
Pakistan, given the subject of this hearing, but it is worth 
reiterating that nuclear dynamics there have regional and global 
aspects.
                     pakistan's nuclear development
    What is known publicly about Pakistan's nuclear weapons program is 
mostly what Pakistan wants India (and the world) to know for deterrence 
purposes. When it flight tests a nuclear-capable missile, the military 
issues a press release. When the nuclear command authority meets to 
discuss threats and policies, they issue a press release. But the other 
essential facts of the Pakistani nuclear program are fairly elusive. 
Public assessments rely largely on analysis of satellite imagery by 
non-government organizations, occasional media articles featuring leaks 
of governmental information, and the writings and statements of 
Pakistani officials and experts. This information suggests that 
Pakistan's nuclear arsenal may number 120 or more weapons, but over the 
past decade it expanded significantly the production of fissile 
material for nuclear weapons. In addition to existing facilities to 
produce highly-enriched uranium, Pakistan constructed and now operates 
four reactors to produce plutonium. It is not clear whether Pakistan is 
concurrently processing all of this material, or that it is going 
straight into nuclear weapons, but if it did so, Pakistan could add 
perhaps 20 nuclear weapons per year to its arsenal. Estimates such as 
this produce the common perception that Pakistan has the ``fastest 
growing nuclear program.''
    There is somewhat clearer data about the nuclear-capable missiles 
Pakistan has tested, based on statements by the government as well as 
videos and photos of the launches, but that data does not extend to 
missile production rates or deployment status. In recent years, 
Pakistan has supplemented its fleet of medium-range ballistic missiles 
with a short-range battlefield missile, the Nasr. Pakistani government 
officials assert that it will carry a low-yield, tactical nuclear 
weapon in order to deter India from carrying out conventional military 
operations on Pakistani territory. Pakistan also has tested a longer-
range missile, the Shaheen-III, which could target Indian military 
facilities as far away as the Andaman and Nicobar islands. And it has 
tested two nuclear-capable cruise missiles, linking these to concerns 
about an eventual Indian ballistic missile defense system. The 
conventional wisdom is that Pakistan does not deploy nuclear weapons in 
peacetime, that it keeps warheads and delivery vehicles separate. 
Whether and how long this non-deployed status will remain the case is 
an open question.
    Why has Pakistan undertaken this expansion of the size and scope of 
its nuclear forces? There are two forces at work here. The first is 
reactive, based on a perceived need to meet an expanding set of threats 
from India. Following the nuclear tests in 1998, Pakistan announced 
that it would seek credible minimum deterrence. But then the Indian 
economy began to grow, as did its defense spending and along with it 
discussion of offensive conventional military doctrines. Concurrently, 
the United States and India announced a strategic partnership, under 
which the United States would essentially remove the shackles on 
India's nuclear energy program. In Pakistan, these developments led 
many to believe that minimum deterrence of existential threats was 
insufficient for Pakistan's security. Thus, in 2011, Pakistan began to 
talk about instead about so-called ``full-spectrum deterrence,'' under 
which nuclear weapons will be used to deter not just a nuclear war, but 
also other threats such as an Indian conventional military attack. It 
is in this context that Pakistani officials have dubbed the Nasr--a 
tactical, battlefield nuclear weapon--a ``weapon of peace,'' because it 
is supposed to prevent India from seeking space for limited 
conventional military operations short of Pakistan's nuclear red-lines.
    The second force behind Pakistan's nuclear expansion is, for want 
of a better term, the black hole of deterrence logic. By this, I mean 
that as Pakistan places increasing emphasis on nuclear weapons to 
counter Indian military threats--rather than conventional arms--nuclear 
deterrence has become a self-reinforcing phenomenon. From Pakistan's 
few official pronouncements on nuclear doctrine and statements by 
government officials, it is clear that deterrence is understood to be 
elastic: whenever the Indian threat grows, more or new nuclear 
capabilities are needed. The expansion of the target set to cover the 
full spectrum of nuclear and conventional military threats necessitates 
more missiles of various ranges and capabilities, as well as more 
warheads, and also greater amounts of fissile material. The bureaucracy 
to manage these capabilities grows in size and importance, and demands 
more budget. At some point, nuclear weapons become a solution in search 
of a problem. Today that means short-range battlefield nuclear weapons, 
but who knows where this logic might lead tomorrow. Early hints of this 
dynamic seem to be at play in Pakistan, and this state may well be its 
future, despite official assertions that nuclear weapons are only for 
deterrence against India and that it cannot afford an arms race. The 
concern about this logic taking hold is that it becomes exceedingly 
difficult to introduce alternative security models that would place 
less priority on nuclear weapons.
                    implications for u.s. priorities
    The growth in Pakistan's nuclear capabilities and the broadening of 
its deterrence objectives raise thorny challenges for U.S. interests to 
prevent a nuclear explosion and to maintain effective security on 
nuclear weapons and materials.
    The stated Pakistani concerns about India's offensive conventional 
military planning are not without merit. Pronouncements from the Indian 
military and strategic community make clear that India has been 
contemplating ways to punish Pakistan for continuing to harbor and even 
support militant groups that have carried out attacks in India. Many 
Indians view this search in terms of restoring deterrence. In their 
view, Pakistan is unlikely to rein in groups like Lashkar-e-Taiba 
unless and until India credibly threatens damage to Pakistan's 
interests in ways that don't invoke Pakistan's nuclear doctrine. 
Accordingly, the Indian Army has sought to formulate and exercise a 
proactive strategy, often called ``Cold Start,'' the point of which is 
to be able to rapidly mobilize sufficient firepower to overwhelm 
Pakistani defenses and inflict defeat on the Pakistan Army. Even if the 
Indian military could carry out such an operation, many experts doubt 
that the Indian government would ever sanction it, given the inherent 
potential for conflict escalation. But for Pakistan, this threat--real 
or perceived--has provided ample justification for its nuclear build-
up.
    Pakistani analysts also point out that India is augmenting its own 
nuclear weapons, not just its conventional military arms. Publicly-
available evidence indicates that India continues to pursue a triad of 
land-, sea-, and air-delivered nuclear weapons in order to provide a 
secure second strike capability, while maintaining minimum credible 
deterrence in accordance with its announced doctrine. It is possible 
India's nuclear posture will change or its arsenal will grow beyond an 
estimated 100 or so weapons as it seeks to balance deterrence 
challenges posed both by China and Pakistan. Some reports suggest that, 
like Pakistan, India is also expanding its fissile material production; 
given the opacity of India's nuclear research program and mixing of 
civilian and weapons facilities, though, it is not clear whether 
additional fissile material would go into an expanded nuclear arsenal 
or into some other activity.
    The sum of these developments is a region with multiple potential 
sources of conflict, unclear nuclear redlines, and considerable room 
for miscalculation. It is alarming that, privately, Indian and 
Pakistani officials and experts indicate they do not find the other's 
nuclear policy credible. Many Indians (and some Pakistanis) argue that 
there is no such thing as ``tactical'' nuclear use that can be confined 
to the battlefield, that any use of nuclear weapons against India will 
result in nuclear retaliation. For their part, many Pakistanis (and 
some Indians) believe that India would not actually respond to limited 
nuclear use on the battlefield with ``massive retaliation,'' as the 
Indian nuclear doctrine calls for. There is no shared sense of where 
nuclear redlines might be drawn. Political pressure seems to be growing 
in India for a punitive response to the next terror attack attributed 
to Pakistan. But given the importance of nuclear deterrence for 
Pakistan, its officials will face severe pressure to respond to any 
Indian military action, lest the credibility of their deterrent threats 
be eroded. Should there be another crisis, the potential speed of 
escalation may not afford the United States much time to intervene and 
attempt to contain the conflict. This necessitates that American 
officials and military officers maintain strong working relationships 
with their counterparts in both countries.
    The same is true of efforts to secure nuclear weapons and material. 
Here it is useful to distinguish between activities to strengthen 
security and those to mitigate threats. Both are important. To be fair, 
Pakistan is not given sufficient credit for the nuclear security 
practices it has put in place. By most indicators, its security is 
probably quite good, but not foolproof. It has learned lessons from the 
A.Q. Khan affair and it has responded to international fears about 
terrorists acquiring weapons by putting in place a comprehensive 
security strategy run by a professional branch within the military. The 
prominence given to nuclear weapons in Pakistan's national security 
strategy means that the government has a very strong interest to 
protect them. To date, there is no public information that indicates 
any close calls of material going missing, and no hints of further 
technology leakage after the Khan proliferation network was dismantled.
    But the frequency and severity of terrorist attacks on military 
facilities, including on some thought to store nuclear weapons, speaks 
to the high threat environment. In addition to implementing the best 
possible nuclear security, it is also necessary to degrade the 
capabilities and reach of non-state groups that might seek to steal or 
explode a nuclear weapon or material. Thus, U.S. policy can't focus 
only on improving security--there is necessarily a counterterrorism 
component as well. It is a long-standing American (and Indian) 
complaint that Pakistan harbors--and in some cases actively supports-- 
groups that harm U.S. interests in the region. Yet it is still in the 
U.S. interest to support Pakistan's fight against groups such as the 
Pakistani Taliban to the extent that these groups pose potential 
threats to Pakistan's nuclear weapons. This tension is unavoidable.
                             u.s. influence
    What means of influence can the United States employ to address the 
priorities described here? Although successive U.S. administrations 
have sought to pursue non-zero-sum relations in South Asia, it is clear 
that U.S. actions or policies toward one state have effects on the 
other. This has important implications for the ability of the U.S. 
government to shape the primary challenges to its interests.
    If nuclear weapons are most likely to be used during military 
conflict, then it makes sense to promote policies to prevent conflict. 
Here, the U.S. role in the region has evolved in recent years--U.S.-
India relations have blossomed while U.S.-Pakistan relations have 
become more troubled. In the past, Pakistan sought to catalyze U.S. 
intervention as a way to internationalize the dispute over Kashmir, 
while India actively opposed any U.S. policy interest in a resolution 
to the Kashmir issue. India has not been overly welcoming of U.S. 
intervention unless it came with promises to coerce Pakistan to crack 
down on groups that attack India. Meanwhile, most Pakistanis probably 
do not trust the United States to be an honest broker in regional 
disputes. Thus, in the abstract, it is difficult to frame the role the 
United States might play in addressing likely sources of conflict.
    Instead, it may be more feasible for the U.S. government to seed 
and facilitate crisis mitigation measures--essentially firebreaks that 
could slow escalation. This objective is particularly worth pursuing if 
Pakistan demonstrates the commitment to not only investigate groups and 
individuals that carry out attacks in India--as it did initially 
following the attack in January this year on the Indian air base at 
Pathankot--but also to prosecute them.
    Turning to the security of nuclear weapons, in addition to 
degrading terrorist threats, another approach is to provide direct 
assistance when and where possible, utilizing cooperative programs 
undertaken by the U.S. Departments of Defense, Energy, and State, as 
well as those offered by organizations such as the International Atomic 
Energy Agency. Trust is a necessary condition for this kind of 
engagement, given the sensitivities involved. Before and after the U.S. 
operation that resulted in the death of Osama bin Laden, there was a 
prevalent narrative in Pakistan that the United States was trying to 
denuclearize it. That kind of story is very corrosive to the trust 
necessary to sustain cooperation on sensitive issues such as nuclear 
security. Security is not an absolute, nor is security cooperation an 
end to itself. And at some point the marginal cost may not produce 
marginal gain, but with the continuing threat posed by groups such as 
the Pakistani Taliban and possibly the self-proclaimed Islamic State, 
it does not seem prudent to risk such cooperation now.
    At the same time, as noted previously, the security challenge is 
growing because of actions taken by Pakistan, specifically the buildup 
and diversification of its nuclear arsenal. Arsenal growth and 
effective security run at cross purposes. Ideally, the United States 
and others should seek ways to convince Pakistan to flatten the growth 
curve of its nuclear program. The honest assessment, however, is that 
since Pakistan embarked on a nuclear weapons program in earnest after 
it suffered defeat in the 1971 war with India, little the United States 
has tried--both in terms of sanctions and inducements--has had an 
appreciable impact on the scope and scale of Pakistan's nuclear 
development.
    As in the past, it is very unlikely today that employing punitive 
measures, or even the conditioning of support in other areas such as 
financing of military equipment, would have a significant impact on 
Pakistan's nuclear program. Moreover, such sanctions would likely 
jeopardize the trust necessary to continue security cooperation and 
possibly also the relationships integral to intervention in a possible 
future militarized crisis. By the same token, and speaking 
hypothetically, there is probably no amount of aid or financial support 
that the United States could provide that could change the direction of 
Pakistan's nuclear arsenal, largely because of the political effect in 
Pakistan: no leader could be seen as selling out Pakistan's nuclear 
weapons to the Americans.
    Recognizing that U.S. options and leverage are quite limited, an 
alternative approach would be to support the development of an Indian 
and Pakistani logic of managing their security competition through 
negotiated limitations on nuclear and military capabilities and 
postures. Or, to put it in blunter terms: to support arms control. It 
is hard to imagine either India or Pakistan signing onto an arms 
control agenda today, but leaders in both countries may find the logic 
appealing in the future as a way to extricate themselves from their 
security dilemma. For mutual restraint to work, it must have an 
internal logic and internal constituencies--it can't be imposed by or 
be seen as the agenda of external actors. But there may be ways to 
incentivize some of the early steps on this path. One possible 
opportunity is through membership in international regimes that both 
seek to join, and specifically the Nuclear Suppliers Group (NSG). If 
there were a process to negotiate benchmarks for membership for both 
states, it could encourage them to take steps to temper impulses in 
their security competition that exacerbate the challenges described 
above.
    In this regard, the policy of the current U.S. administration to 
support an unconditional and exceptional NSG membership path for India 
is problematic. This policy requires no commitments from India to bring 
its nuclear weapons practices in line with those of other nuclear 
states in return for membership. It also opens no pathway to membership 
for Pakistan that would incentivize it to consider nuclear restraints. 
It is not surprising that the U.S. policy has encountered significant 
opposition from a number of other NSG members, not least China, who 
argue that the group should utilize objective criteria when considering 
the membership of states like India and Pakistan that have not signed 
the international Nuclear Non-Proliferation Treaty. Perhaps the next 
U.S. administration will rethink this policy approach and the 
opportunities it presents to address the two nuclear priorities 
described here.
    In closing, against the backdrop of an evolving U.S. role and 
presence in the region and the challenges to U.S.-Pakistan relations, 
but considering the potential consequences of a nuclear incident, there 
continues to be a profound need for the United States to sustain 
options to mitigate perceived nuclear threats. Notwithstanding the 
challenges posed by Pakistan to U.S. interests, this means preserving 
to the extent possible patterns of cooperation and institutional 
relationships that facilitate U.S. influence.


    The Chairman.  Thank you.
    Go ahead, sir.

  STATEMENT OF DR. DANIEL MARKEY, SENIOR RESEARCH PROFESSOR, 
   INTERNATIONAL RELATIONS; ACADEMIC DIRECTOR, GLOBAL POLICY 
   PROGRAM, SCHOOL OF ADVANCED INTERNATIONAL STUDIES, JOHNS 
              HOPKINS UNIVERSITY, WASHINGTON, D.C.

    Dr. Markey. Chairman Corker, Ranking Member Cardin, and 
members of the committee, thank you for inviting me to testify 
about Pakistan and the challenges for U.S. interests.
    This morning I will focus on three sets of issues, all of 
which I have covered at greater length in my written testimony.
    Let me begin with the question of U.S. security assistance 
to Pakistan. Americans have been, I think rightly, frustrated 
by our tortured relationship with Pakistan not least because we 
have courted Islamabad with tens of billions of dollars in 
assistance since 9/11. And the question that is often raised is 
whether we should continue to provide aid at all. I believe we 
should but also that our next President should take another 
long, hard look at our Pakistan strategy across the board.
    Part of my answer to this question is tactical. Pakistan is 
a high stakes game for the United States. Washington would be 
wise to steer clear of risky policy moves at the tail end of 
this administration unless they hold realistic promise of big 
gains. This is not an unqualified argument against cutting 
Pakistan's aid. It is only an argument for thinking carefully 
and acting with purpose. Top U.S. policymakers should 
appreciate that the inadequate cooperation we have from 
Pakistan today is probably better than none at all. We face 
some common enemies, including Al Qaeda, the Pakistani Taliban, 
and ISIS, even while we do not see eye to eye on other fronts.
    In order to justify major policy shifts like eliminating 
aid, labeling Pakistan a state sponsor of terrorism, or 
enacting sanctions, U.S. policymakers should be able to explain 
how such actions would make America's strategic predicament 
better. They would need to consider the possibility that 
coercion could backfire, raising tensions, and making Islamabad 
less willing or able to advance any constructive agenda. So our 
next President could take a far more coercive approach with 
Pakistan, but I think given the likely costs and benefits, I 
expect we are more likely to reduce and restructure assistance 
to Pakistan than to end it altogether.
    Now, in the process, we should find ways to more clearly 
link our ends with our means and also to impose appropriate 
conditions in ways that more Pakistanis and Americans will 
actually understand. And I have tried to sketch out some of 
these in my written testimony.
    Second, with respect to Pakistan's leadership, I would 
suggest that it is difficult to predict who will be running 
Pakistan even by the end of this year. Over the past 6 months, 
there has been media speculation that Pakistan's prime minister 
might step down because of his failing health or because his 
family was implicated in the Panama Papers scandal. Political 
opposition parties are again campaigning for his ouster. Other 
rumors swirl about whether the current army chief, General 
Raheel Sharif, might be granted an extension rather than 
handing over his baton in November as scheduled.
    That said, policy continuity is more likely than change in 
Pakistan. This is because despite two rounds of democratic 
elections and 8 years of civilian government, the military 
remains Pakistan's most dominant national political 
institution, the primary decision-maker on core matters of 
defense and foreign policy, and the chief steward of Pakistan's 
growing nuclear arsenal. The military's policies on issues of 
top importance to the United States are slow to change, even as 
new faces come and go in Islamabad or Rawalpindi.
    Finally, top Pakistani officials claim they are countering 
all terrorists and militants on their soil, including groups 
that have historically enjoyed the support of the state like 
Lashkar-e-Taiba, Jaish-e-Mohammad, and the Haqqani Network. And 
Americans are justifiably skeptical of these claims. But even 
if Pakistan were to seriously tackle these groups, it is 
possible we would not recognize it, at least not right away. If 
Pakistani leaders were aiming to demolish homegrown terrorist 
groups, they would have good reasons to hide their intentions 
and play a more subtle game of divide and conquer. And shortly 
after 9/11, U.S. policymakers were often willing to give 
President Musharraf the benefit of the doubt when he said that 
he would eliminate all terrorists on its soil but not all at 
the same time. At this stage in our relationship with Pakistan, 
however, the burden of proof has shifted to Islamabad.
    For the moment, that means that we should limit our 
expectations, focus our bilateral relationship on where our 
security interests overlap such as the fight against the 
Pakistani Taliban. And in that common fight, our assistance, 
including some relevant military equipment, would be justified.
    But looking to the future, U.S. and Pakistani officials 
must understand that we are far from a sustainable equilibrium 
in our relationship. Fundamental differences persist, and 
another bilateral crisis is too easy to imagine. Our next 
President will need to undertake a comprehensive review of our 
Pakistan strategy to include questions of assistance, the 
promotion of democracy and good governance and 
counterterrorism, among others.
    Thank you.
    [Dr. Markey's prepared statement follows:]


             Prepared Statement of Dr. Daniel S. Markey \1\
---------------------------------------------------------------------------

    \1\ Parts of this testimony are drawn from several prior 
publications: ``Stop Writing Pakistan Blank Checks,'' Foreign Policy, 
February 18, 2016, accessed online at http://foreignpolicy.com/2016/02/
18/pakistan-corker-military-aid-blank-checks-corruption-terrorism/; 
``Preparing for Change,'' The Cipher Brief, March 29, 2016 accessed at 
https://www.thecipherbrief.com/article/asia/preparing-change; 
``Pakistan's Insider Threat,'' The Fletcher Forum of World Affairs, 
Vol. 38: 1 (Winter 2014): 41-46; ``Superficially Normal,'' The Cipher 
Brief, October 7, 2015 accessed at https://www.thecipherbrief.com/
article/superficially-normal-0; and ``The Future of U.S.-Pakistan 
Relations,'' Seminar, 664 (December 2014): 69-73 accessed at http://
www.india-seminar.com/2014/664/664-daniel-markey.htm.
---------------------------------------------------------------------------
    Chairman Corker, Ranking Member Cardin, and members of the 
committee:
    Thank you for inviting me to testify about Pakistan and the 
challenges for U.S. interests. In my testimony, I will address three 
broad issues. First, I will discuss U.S. assistance to Pakistan, 
weighing its limitations and its value as a policy tool for inducing 
Pakistan to undertake policies that serve U.S. interests. Second, I 
will assess the current status of civilian-military relations in 
Pakistan, stressing the primacy of the military, the prospects for 
civilian democracy, and the implications of political change in the 
near term. Third, I will consider the likelihood that Pakistan will 
take significant measures against militant organizations that threaten 
Pakistan's neighbors, including the Haqqani Network, Lashkar-e-Taiba 
(LeT), and Jaish-e-Mohammad.
             lessons of u.s. assistance and the way forward
    One lesson Washington should have learned from its long experience 
with Pakistan is never to overestimate the leverage generated by U.S. 
assistance. Despite tens of billions of dollars in aid since 9/11, 
Islamabad does not see the world through the United States' preferred 
strategic prism, whether in Afghanistan, India, or with respect to 
nuclear proliferation. As I will discuss at greater length below, 
Pakistan's inadequate effort in the fight against terrorism represents 
a fundamental sticking point in its relationship with the United 
States.
    Then again, history also shows that U.S. sanctions on Pakistan 
throughout the 1990s failed to curtail Pakistan's nuclear ambitions, 
the political dominance of its military, or the state's support to 
terrorist groups like the Taliban and LeT that have engulfed the region 
in violence. In short, aid is no panacea. But neither are sanctions.
    To appreciate the limitations of U.S. aid to Pakistan, we should 
begin by noting that assistance has never been the only--and is rarely 
the most significant--policy tool used by Washington at any given time. 
Therefore, the consequences of aid must not be judged as if they were 
delivered in a vacuum. For instance, U.S. lawmakers should not be 
surprised that billions of dollars in development assistance over the 
past decade failed to win Pakistani ``hearts and minds'' when the 
arrival of that money coincided with a massive surge in violence at 
least partly caused by the U.S. war in neighboring Afghanistan.
    Worse than being ineffective, U.S. aid to Pakistan can even be 
counterproductive. Too often throughout the history of the U.S.-
Pakistan relationship, American money has propped up some of the most 
repressive, anti-reformist leaders and institutions in Pakistani 
society, including the military and feudal civilian elites. 
Unfortunately, many of America's natural allies in Pakistan have been 
alienated as a consequence.
    In principle, whether provided for military or civilian purposes, 
aid can serve one of several basic aims: building capacity, improving 
leverage, and buying access. But too often the arguments for U.S. aid 
to Pakistan have been unconvincing because the purposes were muddled. 
The recent debate over whether to pay for F-16s is a case in point. It 
has never been clear precisely what U.S. financing of eight new F-16s 
would do to advance U.S. interests. Were they intended to improve 
Pakistan's counterinsurgency capacity along the Afghan border? Buy U.S. 
officials more time in Army Chief Gen. Raheel Sharif's office? Convince 
Pakistan's army to attack the Haqqanis? The lack of clarity on this 
point--in a climate of pervasive skepticism about Pakistan--helped to 
kill that deal.
    This leaves us with two questions: First, why bother to continue 
aid to Pakistan at all? And second, if there are good reasons to keep 
the aid flowing, can we do it more effectively?
    At present, the simplest reason to avoid a dramatic cut in aid is 
that it would represent a significant shift from the status quo. 
Pakistan is a high-stakes game for the United States. Washington would 
be wise to steer clear of risky policy moves, including threats to 
curtail assistance and reimbursements, unless they hold the realistic 
promise of significant gains. This is not an unqualified argument 
against cutting Pakistan's aid, but only for thinking carefully and 
acting with purpose.
    Pakistan is a frustrating partner, but that does not reduce the 
value of its partnership to zero. Pakistan permits--and at times has 
enabled-the United States to wage a counterterror drone campaign over 
parts of its territory and, even at times of deep bilateral discord, to 
continue flying personnel and arms across Pakistani airspace into 
Afghanistan. Neither side has been eager to publicize these areas of 
cooperation, but even American skeptics must admit their utility. Air 
corridors are readily closed and drones are easy to shoot down, so if 
Pakistan had really wanted to end what in 2009 then-CIA Director Leon 
Panetta called the ``only game in town in terms of confronting and 
trying to disrupt the al-Qaida leadership,'' or to further complicate 
the U.S. war effort in Afghanistan, it could have done so without 
breaking much of a sweat. It still could.
    Top U.S. policymakers appreciate that the inadequate cooperation we 
have from Pakistan today is probably better than none at all. They also 
know that Pakistan and the United States do face some common enemies, 
including al Qaeda, the Pakistani Taliban, and ISIS, even if we don't 
see eye-to-eye on other fronts. In order to justify major policy shifts 
like eliminating aid, labeling Pakistan a state sponsor of terrorism, 
or enacting sanctions, U.S. policymakers should be able to explain how 
such actions would make America's strategic predicament easier. In the 
process, they would need to consider the possibility that U.S. attempts 
at coercion could backfire, raising tensions and weakening Pakistan in 
ways that only make Islamabad less willing or able to advance any 
constructive agenda.
    With U.S. presidential elections around the corner, now would be an 
especially poor time for Washington to undertake a tougher coercive 
approach with Pakistan. The Obama administration cannot credibly 
threaten Pakistan because it will not be in office long enough to make 
its threats real. Islamabad would exercise the option of waiting out 
any new policy from the Obama administration, hoping that the next 
president takes a friendlier approach. Some might argue that the Obama 
administration should take a parting shot at Pakistan, demonstrating 
its displeasure with Islamabad and then enabling the next 
administration to reestablish ties at whatever level it deems 
warranted. But such a move would force the incoming president to 
grapple with Pakistan immediately, a tall and unwelcome order given the 
many other global challenges that await.
    It is difficult to imagine that any new White House team would 
willingly choose to make Pakistan a top issue for the president's first 
few months in office. That said, President Obama's successor is almost 
certain to order a thorough review of Pakistan policy upon taking 
office. Then, working on its own timeline, the new administration could 
decide to implement a restructuring and/or reduction of aid, threats of 
sanctions, and other coercive steps.
    It is at least conceivable that a potent new combination of U.S. 
policies could compel or induce Pakistan's military and civilian 
establishment into enacting policies that better serve U.S. interests. 
Indeed, the United States has successfully coerced Pakistan in the 
past, at least temporarily. The George W. Bush administration's post-9/
11 ``with us or against us'' threat to then-President Pervez Musharraf 
forced Pakistan into an early, if fleeting and inadequate, alliance 
against al-Qaeda, one that netted several high-profile terrorists 
living in Pakistan like Khalid Sheikh Mohammed. Of course, the new 
administration would also need to recognize that the United States is 
rarely as capable of delivering a credible threat as it was in the days 
after 9/11. Unless the United States is willing to pick a fight with 
Pakistan, it should avoid moves that irritate or weaken Islamabad when 
they hold little hope of advancing a serious strategic purpose.
    I anticipate that after weighing all the costs and benefits, the 
next administration is likely to reduce and restructure assistance to 
Pakistan but not to end it altogether. With this in mind, the Obama 
administration would do its successor a favor by completing a final 
review of all existing and planned aid to Pakistan.
    On the civilian side, this should be done with a critical eye to 
how each project can realistically contribute to Pakistan's economic 
and political development and/or reform. That review will enable the 
next administration to cut or reallocate resources in ways that better 
advance Pakistan's long term political stability, economic growth, and 
security, bearing in mind that U.S. aid alone cannot solve most of 
Pakistan's challenges and that the goal is to find areas where targeted 
investments of U.S. money or technical know-how can pay outsized or 
unique dividends. The review should also assess whether the overall 
scale of U.S. aid is appropriate to the task at hand in Pakistan, or 
whether a fundamentally different approach--such as the Chinese are 
pursuing with concessional loans aimed at promoting infrastructure or 
other investments--would be smarter.
    With respect to security assistance, the next administration should 
think in terms of three basic categories of aid. Each would come with 
different purposes and conditions.
    Aid in the first category would support Pakistan's activities in 
which there is a nearly complete convergence of American and Pakistani 
goals, but where the United States can offer financial, technical, or 
other support to lighten the burden on a relatively weaker, less-
developed, and poorer nation. Military assistance in Pakistan's fight 
against domestic insurgent groups like the Tehrik-i-Taliban Pakistan 
would fall into this category, because Washington also views these 
groups as dangerous terrorists. In overseeing this aid, Congress would 
mainly seek confidence that U.S. resources are being put to effective 
use and would not need to impose significant conditions because 
Pakistani and U.S. ends and means are aligned.
    Aid in the second category would be used to alter Pakistan's 
security tactics in areas where Washington and Islamabad agree broadly 
about ends, but not means. For instance, funds for counterinsurgency 
could be linked to specialized training intended to reduce civilian 
casualties. This category of aid should be conditioned by Congress to 
make it more likely that it will be put to use in the ways defined by 
U.S. officials, but with enough flexibility to show that Washington's 
main goal is cooperation, not coercive leverage.
    In the third category would be funds offered as inducements for 
strategic shifts by Pakistan. Aid in this category would be intended as 
leverage, for instance to encourage Pakistan to take action against 
terrorists like the Haqqani Network and LeT. These funds would need to 
be offered with strictly legislated conditions, structured in ways that 
ensure aid delivery takes place only after Pakistan satisfies 
Washington's requirements. Here, the goal is to demonstrate the value 
that the United States would place on policy shifts by Islamabad while 
simultaneously being honest with ourselves and the Pakistanis about the 
deep differences that threaten to derail the bilateral relationship.
    Across the board, the clearer and more realistic our aims, the 
easier it will be to judge whether U.S. assistance is likely to deliver 
our desired outcome at a reasonable cost, the more likely it will 
garner sustained political support among Americans and their elected 
representatives, and the simpler it will be to explain to Pakistanis.
                military dominance, civilian turbulence
    Despite two rounds of democratic elections and eight years of 
civilian government, the military remains Pakistan's most dominant 
national political institution, the primary decision-maker on core 
matters of defense and foreign policy, and the chief steward of 
Pakistan's growing nuclear arsenal. Decisions about how to manage the 
state's relationships with violent extremist organizations depend on 
Pakistan's military, and within it, the powerful Inter-Services 
Intelligence directorate (ISI). In addition, the military has jealously 
guarded its perks and resources that insulate uniformed personnel from 
many of the economic hardships suffered by their countrymen. If 
Pakistan is ever to enjoy a more effective, consolidated democratic 
rule, the generals will need to loosen their hold and submit to 
civilian authority.
    In 2008, the end of the Musharraf regime marked the return of 
elected civilian government and a euphoric surge of hope that Pakistan 
would set itself on a path of sustainable democracy. By the time the 
PPP-led government under president Asif Ali Zardari left office in 
2013, however, it was widely perceived to have surrendered core 
governing authorities under pressure from the army. That year's 
resounding election victory by the PML-N and the return to power of 
Prime Minister Nawaz Sharif again raised expectations that a strong 
civilian team would use its popular legitimacy to check political 
encroachment by the military.
    Yet during the past several years, Pakistan's army has on multiple 
occasions reasserted its dominance over civilian politicians. At least 
some of Pakistan's top brass are reportedly unsatisfied with Prime 
Minister Nawaz Sharif, blaming his government for ineffective rule or 
labeling him unfit for a variety of other reasons. Over the past six 
months, there has been media speculation that the prime minister might 
step down because of his failing health or because his family was 
implicated in the Panama Papers scandal, or that the current army 
chief, General Raheel Sharif, might be granted an extension rather than 
handing over his baton in November as scheduled. Simultaneously, 
political opposition parties are once again campaigning for Nawaz 
Sharif's ouster. In short, it is difficult to predict precisely who 
will be running Pakistan when America's next president takes office.
    Under similar conditions in decades past, Pakistan might be ripe 
for a coup. Now the military is playing a savvier game, pulling the 
nation's strings from behind a curtain so as to avoid the taint of 
dictatorship and, perhaps more importantly, to shirk its responsibility 
for improving the quality of governance. But this puppet show may not 
be so easily sustained. Political turmoil has considerable disruptive 
potential in the short run. More worrisome, a sham democracy will have 
dangerous vulnerabilities over the long run, depriving the state of 
popular legitimacy in the midst of an existential confrontation with 
Islamist insurgency.
    That said, barring a serious crisis, we should anticipate more 
policy continuity than change from Pakistan over the next six months. 
In particular, a new army chief is unlikely to alter Pakistan's 
strategic trajectory in significant ways--either positive or negative. 
This is partly a consequence of the fact that General Sharif (who 
nominates a short list of his successors) and Prime Minister Sharif 
(who selects his new chief from that list) both have strong reasons to 
avoid wild card candidates.
    At other periods in U.S.-Pakistan history, U.S. officials have 
implicated themselves in Islamabad's political dramas. This was most 
notable in the final years of the Musharraf era. Today the cooling of 
the bilateral relationship in general and specific U.S. frustrations 
with all of Pakistan's leading political figures make that less likely. 
U.S. interests are now less personal and more institutional. American 
confidence in the benefits associated with civilian democratic rule 
will lead U.S. policymakers to support democratic reform and 
consolidation in Pakistan, while pressing security requirements will 
lead them to pursue certain types of cooperation with Pakistan's most 
powerful leaders, no matter who they happen to be.
                    prospects for a strategic shift
    Pakistani officials claim they are committed to countering all 
terrorists and militants on their soil, including groups that have 
historically enjoyed the support of the state like Lashkar-e-Taiba 
(LeT), Jaish-e-Mohammed, and the Haqqani Network. Americans are 
justifiably skeptical of such promises, having heard them repeatedly 
over the past fifteen years without adequate follow-through. One 
glaring example of the chasm between rhetoric and reality: President 
Musharraf banned LeT in 2002 but the group's leader Hafiz Mohammad 
Saeed still addresses large rallies in Pakistan's cities, including the 
capital. Many critics of Pakistan--whether Indian, Afghan, or 
American--see in all of this a nefarious double game. At best, 
Pakistan's leaders have failed to demonstrate to the world that they 
possess the will and capacity to implement a truly non-discriminatory 
approach toward terrorists.
    This raises at least two questions. First, how would we know if 
Pakistan were actually in the process of a positive strategic shift on 
countering terrorism? And second, until Pakistan's position is clear, 
how should Washington deal with Islamabad?
    The first question is a serious one because, as some Pakistani 
security officials argue in private, if Pakistan did pick a fight with 
all of the terrorists and militants on its soil at once, victory could 
not be assured. Beyond that, a frontal assault might not be the 
smartest approach to rooting out terrorists and unraveling decades of 
state support to militants. It could even make a bad situation worse. 
By this logic, if Pakistani leaders were aiming to demolish homegrown 
terrorist groups, they would have good reasons to hide their intentions 
and to play a more subtle game of divide and conquer. As a consequence, 
outside observers would find it difficult to discern the difference 
between a continuation of Pakistan's old double game and a carefully 
calibrated counterterror strategy.
    Washington's patience with Pakistan on this score has waxed and 
waned. Shortly after 9/11, U.S. policymakers were often willing to 
accept such arguments at face value, or at least to give President 
Musharraf the benefit of the doubt when he professed his intention to 
eliminate all terrorists on his soil, but not all at the same time. By 
2011, however, when Admiral Michael Mullen testified before Congress 
that the Haqqani network was a ``veritable arm of Pakistan's Inter-
Services Intelligence agency,'' it was clear that the burden of proof 
had shifted to Pakistan.
    Today administration officials maintain greater equanimity. They 
have neither swooned over Pakistani army operations against the 
Pakistani Taliban (TTP) in North Waziristan (by, for instance, 
reprising some version of the Bush administration's rhetoric about 
Pakistan being a ``frontline ally in the war on terror''), nor have 
they regularly gone out of their way to belittle Pakistani efforts 
because they do too little to tackle America's terrorist enemies. More 
often than not, they have praised Pakistani steps in the right 
direction without attempting to judge their broader consequences. With 
some exceptions, including recent statements by Secretary Kerry in New 
Delhi, U.S. criticism tends to be delivered behind closed doors rather 
than through public reprimands.
    This is the best near-term answer to how the United States should 
work with Pakistan, at least until the next administration is ready to 
formulate a different approach. In effect, it means accepting a gradual 
downward drift in relations with Pakistan while working within the 
confines of reduced expectations. Where U.S. and Pakistani security 
interests overlap, such as the fight against the TTP, there should be 
opportunities for cooperation and even significant U.S. assistance. For 
example, the FMF denied for use in purchasing F-16s could be well spent 
on weapons more clearly intended for use against the TTP. On other 
fronts, such as certifying that Pakistan is making progress against the 
Haqqani Network, U.S. officials should hold back until Pakistan 
delivers.
    Yet U.S. and Pakistani officials must understand that they have 
found only a temporary salve for the relationship, not a sustainable 
equilibrium. Fundamental differences simmer on the back burner, 
unresolved. A relationship built on reduced expectations, diminished 
attention, and little trust will likely fizzle out over time, even if 
it is not again confronted by any spectacular crisis. And at least as 
long as sophisticated international terrorists call Pakistan home, 
another crisis is reasonably easy to envision.


    The Chairman.  Thank you very much.
    Go ahead, sir.

    STATEMENT OF ROBERT L. GRENIER, CHAIRMAN, ERG PARTNERS, 
                        WASHINGTON, D.C.

    Mr. Grenier. Mr. Chairman, Ranking Member Cardin, I want to 
thank you very much, along with the other members of the 
committee, for inviting me here today to talk about what is 
arguably one of the most difficult, complicated, trying, and I 
would also argue most important foreign relationships.
    My personal knowledge of U.S.-Pakistani relations is 
primarily informed by practical experience as I have engaged 
with others in trying to manage those relations dating back to 
the mid-1990s. As I began in the early days of the Clinton 
administration, I was a special assistant to the then-Under 
Secretary of State for Political Affairs on loan from the CIA 
and was involved in the annual terrorism review involving 
Pakistan. I can tell you that in 1993 and 1994, Pakistan came 
within a hair's breadth of ending up as a formal member of the 
list of state sponsors of terrorism dating back even then.
    Later in 1999, I was assigned as the CIA Station Chief in 
Pakistan with the responsibility for both Pakistan and 
Afghanistan. And I can say that during the 3 years of that 
tenure, I saw perhaps the worst U.S. relations with Pakistan in 
recent times, as well as perhaps the best ones in the immediate 
aftermath of 9/11.
    I then returned to that sphere in 2004-2006 when I was then 
the Director of Counterterrorism at CIA.
    As I look back on the history of U.S.-Pakistan relations 
over the last 50 years or so, it is very clear that we have a 
repetitive cycle at work here. The reasons for U.S. 
dissatisfaction with Pakistan may have evolved over time from 
past reluctance to deal with anti-democratic military regimes 
to abhorrence of Pakistani atrocities in east Pakistan in the 
early 1970s, to concerns over nuclear proliferation in support 
of Kashmiri militants in the 1980s and the 1990s, to the 
preoccupation that we have just been discussing now with 
Pakistani tolerance for the Afghan Taliban and the Haqqani 
Network.
    Throughout it all, however, the U.S. has been willing at 
least episodically to overlook its concerns with aspects of 
Pakistani behavior and to subordinate those concerns to what we 
perceived at the time to be overriding national security 
priorities, only to revert then to more contentious relations 
when those interests no longer apply.
    I will not repeat the history of the 1980s where we were 
willing to overlook growing evidence of the Pakistani nuclear 
weapons program at the time in deference to our joint efforts 
against the anti-Soviet Mujahiddin when in the 1990s, with the 
Soviets having essentially withdrawn from Afghanistan, we 
instead replaced former rewards with congressionally mandated 
sanctions.
    In the immediate aftermath of 9/11, the cycle began again. 
Needing a platform for operations in Afghanistan and a partner 
to intercept Al Qaeda members who were fleeing from that 
country, the U.S. was willing to subordinate its broader 
concerns with Pakistani support for militancy in Kashmir and 
elsewhere, as well as Pakistan's highly ambivalent relationship 
with the Afghan Taliban. And arguably, that is the bargain that 
we have maintained ever since.
    As U.S.-Pakistani relations have gone through these cycles 
of boom and bust and as the U.S. policy toward Pakistan has 
alternated between extremes, some things have remained 
constant. Pakistan, for its part, has stubbornly clung to its 
own perceptions of national interest and has generally refused 
to compromise those perceived interests even when their pursuit 
has seemed irrational or self-defeating in U.S. eyes, whether 
we are talking about nuclear weapons doctrine, the Pakistani 
assessment of threat from India, or its calculus regarding both 
foreign and domestic militant groups.
    Pakistani adherence to its perceived interests in fact has 
persisted irrespective of U.S. administered punishments or 
inducements. This has generated considerable outrage and 
frustration looking back over the years on the U.S. side, 
particularly in recent times in the context of 
counterterrorism, where the fight against radical Islamic 
militancy is seen here in both practical and moral terms. 
Pakistani fear of seeing Islamically inspired militants unite 
against it and its resulting insistence on making at times 
overdrawn, in effect, wishful distinctions among militant 
groups based on the degree of proximate threat to Pakistan as 
opposed to others has led to U.S. charges, consistent charges, 
of double-dealing, particularly when the U.S. believes that it 
is paying the bill. To the U.S., the struggle against violent 
extremism is a moral imperative, a view which Pakistan, used to 
making practical compromises with militancy in the context of 
both foreign and domestic politics, simply does not share in 
the same way.
    U.S. frustration is mirrored on the Pakistani side by its 
perception of the U.S. as a fickle and inconstant partner, 
which does not recognize Pakistan's heavy sacrifices in a 
violent struggle with Pakistani-based extremists, which has 
been fueled in large measure by Pakistani support for U.S. 
counterterrorism policy. Now, that assertion may sound jarring 
to American ears, given the perceived limitations in Pakistani 
counterterrorism policy, but it is a view which is firmly held 
by the extremists themselves. Pakistani resentment of America 
is driven by the perception that the U.S. will never be 
satisfied by what Pakistan does, and given the serious 
underlying differences between the two, the Pakistanis are 
right: the U.S. is unlikely ever to be satisfied and perhaps 
justifiably so.
    Once again, U.S.-Pakistani relations are at an inflection 
point. In recent years, U.S. relations with Pakistan have been 
driven largely by U.S. engagement in Afghanistan. But there has 
been a qualitative change in the nature and the aims of U.S. 
involvement in Afghanistan, and the dynamic of U.S.-Pakistan 
relations needs to change along with it. I would argue that 
much of the current frustration with U.S.-Pakistan relations is 
driven by backward-looking desires and concerns which simply no 
longer apply in the same way. The U.S./NATO military posture in 
Afghanistan is a small fraction of what it once was. The U.S. 
no longer aims to defeat the Taliban. Instead, it hopes merely 
to keep the Kabul regime from being defeated.
    With U.S. ends and means having changed so drastically in 
Afghanistan, it is highly unrealistic to suppose that Pakistan 
is going to make up the difference. Pakistan cannot succeed in 
bringing the Afghan Taliban to heel where 150,000 U.S. and NATO 
troops and hundreds of billions of U.S. dollars have failed. 
And what is more, they are simply not going to try. Pakistani 
influence in Afghanistan, despite longstanding legend to the 
contrary, is distinctly limited. Pakistan's leadership 
understands that a Taliban victory in Afghanistan would be a 
strategic disaster for itself, but lacking the means to 
decisively influence events there and continuing to harbor 
serious doubts about the strategic orientation of the Kabul 
regime, it is disinclined to take the risks involved in trying 
to do so.
    As Afghanistan settles into a dynamic stalemate of 
indeterminate outcome, it is time for the U.S. to refocus on 
its long-term fundamental interests in South Asia. The reasons 
for America's post-9/11 obsession with Afghanistan are clear 
enough. I was present, after all, at the creation. But long-
term strategic interests in Pakistan actually dwarf those in 
Afghanistan. Arguably, we have allowed the tail to wag the dog 
for too long and it is time to reorient our policy.
    Pakistan is now engaged in a long, complicated, twilight 
struggle against religiously inspired extremism, both 
internally and across its borders. For Pakistan, this is not 
simply a matter of finding, fixing, and eliminating committed 
terrorists. Ultimate victory will necessitate addressing the 
hold which various forms of extremism have long exerted on 
large portions of Pakistan's own body politic, and thus the 
political environment in which important policy decisions are 
made. Long-term solutions for Pakistan will involve social and 
educational reforms as much as military action. But I would say 
that given Pakistan's importance in global counterterrorism 
policy, its status as a nuclear-armed state, its troubled 
relations with India, and its location at the heart of a highly 
important but politically unstable region of the world, the 
U.S. has a considerable stake in the outcome of that struggle 
and would be well advised to maintain a constructive engagement 
with Pakistan at multiple levels, lest the wrong side win.
    In Pakistan, as elsewhere, the U.S. must balance achievable 
goals with effective means. This may well dictate a lowering of 
overall U.S. expenditures in Pakistan than we see currently, 
but the dynamics and motivations behind those spending 
decisions must fundamentally change.
    The Chairman.  Are we coming to a close?
    Mr. Grenier. Yes, sir, we are.
    Let me just say that limited U.S. means will have to be 
calibrated in Pakistan against achievable goals in light of 
U.S. priorities going forward.
    That said, given overarching U.S. interests in the region, 
there will be many worthy candidates for U.S. assistance, many 
of which have been touched on here. But in short, the U.S. 
dares not turn its back on Pakistan as it seeks to protect its 
serious national security interests in South Central Asia. Wise 
policy going forward will require the U.S. to rebalance an 
overly Afghan-centric policy posture of the past and to accept, 
however reluctantly, those aspects of tactical Pakistani 
behavior it cannot change, focusing instead on priority long-
term goals which can actually be achieved. Such a policy will 
often feel less than satisfying, but in my view it is the only 
responsible way forward.
    Thank you, Mr. Chairman.
    [Mr. Grenier's prepared statement follows:]


                Prepared Statement of Robert L. Grenier

    Mr. Chairman, I wish to thank you and the members of the Committee 
for the opportunity to appear before you today to discuss one of 
America's most difficult, complicated, trying--and also important--
foreign relationships. My knowledge of U.S.-Pakistan relations is 
primarily informed by my practical experience in helping to manage 
those relations, dating back to the mid-1990s.
    At the start of the Clinton administration, in 1993 and 1994, I was 
a Special Assistant to the Undersecretary of State for Political 
Affairs, on loan from CIA, deeply involved in an annual terrorism 
review which nearly resulted in Pakistan's being placed on the formal 
list of state sponsors of terrorism. In 1999, I was posted to Islamabad 
as the CIA station chief for both Pakistan and Afghanistan. My three-
year tenure in that position spanned both the lowest and, arguably, the 
highest points in recent U.S.-Pakistan relations, when 9/11 propelled 
Pakistan from being a heavily sanctioned, near-pariah state to a front-
line U.S. ally in the then-recently proclaimed ``global war on 
terror.''
    After leaving Pakistan in 2002, I later returned to active 
involvement in U.S.-Pakistan affairs from 2004 to 2006, this time as 
Director of the CIA Counter-terrorism Center. At that time, Pakistan 
remained, by far, America's single most important foreign counter-
terrorism partner. It is perhaps emblematic, however, of the deep-
seated differences and suspicions which have always lurked just beneath 
the surface of U.S.-Pakistan relations even in the best of times, that 
in the five years between my retirement in 2006 and the killing of 
Osama bin Laden in 2011, we went from a situation where the bin Laden 
raid would undoubtedly have been carried out jointly, to one where the 
U.S. felt constrained to conduct this operation unilaterally, with good 
reason in my view, despite the predictable consequences for bilateral 
ties.
    As I look back now at the history of U.S.-Pakistan relations over 
the past 50 years and more, it is clear that there is a repetitive 
cycle at work. The reasons for U.S. dissatisfaction with Pakistan may 
have evolved over time--from past reluctance to deal with anti-
democratic military regimes, to abhorrence of atrocities in East 
Pakistan in the early 1970s, to concerns over nuclear proliferation and 
Pakistani support to Kashmiri militants in the `80s and `90s, to 
today's preoccupation with Pakistan's tolerance of the Afghan Taliban 
and the Haqqani network. Through it all, however, the U.S. has been 
willing, episodically, to overlook its concerns with aspects of 
Pakistani behavior and to subordinate those concerns in the face of 
what have appeared, at the time, to be overriding national security 
priorities--only to revert to a more contentious relationship when 
those interests no longer pertained.
    Thus, in the 1980s, the U.S. was willing not only to overlook 
growing evidence of Pakistan's nuclear weapons program in deference to 
joint U.S.-Pak support to the anti-Soviet Afghan Mujahiddin, but also 
to provide Pakistan with generous economic and military rewards in the 
bargain. In the 1990's, however, with the Soviets safely expelled from 
Afghanistan, those rewards were abruptly replaced with Congressionally-
mandated sanctions.
    In the immediate aftermath of 9/11, the cycle began again. Needing 
a platform for operations in Afghanistan and a partner to intercept al-
Qa'ida militants fleeing that country, the U.S. was again willing to 
subordinate its broader concerns with Pakistani-based militancy in 
Kashmir and with Pakistan's ambivalent attitude toward the Afghan 
Taliban--which I should note was manifest almost from the start of the 
U.S. military involvement in Afghanistan. Once again, the U.S. was 
willing to provide extensive financial support to Pakistan, much of it 
tied at least loosely to Pakistani support of U.S. operations, and to 
Pak military deployments along its western border. And although much 
has happened in the interim, that is the essential bargain which has 
pertained ever since.
    As U.S.-Pak relations have gone through these cycles of boom and 
bust, and as U.S. policy toward Pakistan has alternated between one 
extreme and the other, some things have remained constant. Pakistan, 
for its part, has clung stubbornly to its own perceptions of national 
interest, and has generally refused to compromise those perceived 
interests, even when their pursuit has seemed irrational or self-
defeating to U.S. eyes--whether in the context of nuclear weapons 
doctrine, in its assessment of the threat from India, or in its 
calculus regarding both foreign and domestic militant groups. Pakistani 
adherence to its perceived interests, in fact, has persisted, 
irrespective of U.S.-administered punishments or inducements. This has 
generated considerable outrage and frustration on the U.S. side, 
particularly in recent times on counterterrorism, where the fight 
against radical Islamic militancy is seen in both practical and moral 
terms. Pakistani fear of seeing Islamically-inspired militants unite 
against it, and its resulting insistence on making at times overdrawn 
and wishful distinctions among militant groups based on the degree of 
proximate threat they pose to Pakistan as opposed to others, leads to 
U.S. charges of double-dealing, particularly when the U.S. believes it 
is paying the bill. To the U.S., the struggle against violent extremism 
is a moral imperative--a view which Pakistan, used to making practical 
compromises with militancy in the context of both foreign and domestic 
politics, simply does not share in the same way.
    U.S. frustration is mirrored on the Pakistani side by its 
perception of the U.S. as a fickle and inconstant partner, which does 
not recognize Pakistan's heavy sacrifices in a violent struggle against 
Pakistan-based extremists which has been fueled, in large measure, by 
Pakistani support for U.S. counterterrorism policy. That assertion may 
sound jarring to American ears, given the perceived limitations in 
Pakistani counterterrorism policy, but it is a view firmly held by the 
extremists themselves. Pakistani resentment of America is driven by the 
perception that the U.S. will never be satisfied by what it does, and 
given the serious underlying differences between the two, the 
Pakistanis are right: The U.S. is unlikely ever to be satisfied, and 
perhaps justifiably so.
    Once again, U.S.-Pakistan relations are at an inflection point. In 
recent years, U.S. relations with Pakistan have been driven by the U.S. 
engagement in Afghanistan. But there has been a qualitative change in 
the nature and aims of the U.S. involvement in Afghanistan, and the 
dynamic of U.S.-Pakistan relations needs to change with it. Indeed, I 
would argue that much of the current frustration in U.S.-Pakistan 
relations is driven by backward-looking desires and concerns which 
simply no longer apply. The U.S./NATO military posture in Afghanistan 
is a small fraction of what it once was. The U.S. no longer aims to 
defeat the Taliban; instead it hopes merely to keep the Kabul regime 
from being defeated. With U.S. ends and means having changed so 
drastically in Afghanistan, it is highly unrealistic to suppose that 
Pakistan is going to make up the difference. Pakistan cannot succeed in 
bringing the Afghan Taliban to heel where 150,000 U.S. and NATO troops 
and hundreds of billions of U.S. dollars have failed, and what's more, 
they're not going to try. Pakistani influence in Afghanistan, despite 
long-standing legend to the contrary, is distinctly limited. Pakistan's 
leadership understands that a Taliban victory in Afghanistan would be a 
strategic disaster for itself, but lacking the means to decisively 
influence events there--and continuing to harbor serious doubts about 
the strategic orientation of the Kabul regime--it is disinclined to 
take the risks involved in trying to do so.
    As Afghanistan settles into a dynamic stalemate of indeterminate 
outcome, it is time for the U.S. to refocus on its long-term 
fundamental interests in South Asia. The reasons for America's post-9/
11 obsession with Afghanistan are clear enough--I was present, after 
all, at the creation--but long-term U.S. strategic interests in 
Pakistan in fact dwarf those in Afghanistan. Arguably, we have allowed 
the tail to wag the dog for too long, and it is time to reorient our 
policy.
    Pakistan is now engaged in a long, complicated, twilight struggle 
against religiously-inspired extremism, both internally and across its 
borders. For Pakistan, this is not simply a matter of finding, fixing, 
and eliminating committed terrorists. Ultimate victory will necessitate 
addressing the hold which various forms of extremism have long exerted 
on large portions of its own body politic, and thus the political 
environment in which important policy decisions are made. Long-term 
solutions for Pakistan will involve social and educational reforms as 
much as military action. Given Pakistan's importance in global 
counterterrorism policy, its status as a nuclear-armed state, its 
troubled relations with India, and its location at the heart of a 
highly important but politically unstable region of the world, the U.S. 
has a considerable stake in the outcome of this struggle, and would be 
well advised to maintain a constructive engagement with Pakistan at 
multiple levels.
    In Pakistan as elsewhere, the U.S. must balance achievable goals 
with effective means. This may well dictate a lower overall level of 
U.S. expenditure in Pakistan than we see currently, but the dynamics 
and motivations behind those spending decisions must fundamentally 
change. Afghanistan will continue to loom large in U.S. calculations, 
but it will inevitably recede in importance. As the U.S. navigates this 
shift, it will have to accept that in many areas, Pakistan and the U.S. 
will simply have to agree to disagree. Although the U.S. and Pakistan 
share largely similar strategic goals, both at home and in Afghanistan, 
the disparities in perspective, in priorities and in tactical approach 
between the two will continue to necessitate an essentially 
transactional relationship. That relationship will inevitably be 
contentious, but it need not be cripplingly acrimonious.
    Quite frankly, one of the most important challenges limiting 
effective cooperation between the U.S. and Pakistan will be what I 
regard as an endemic deficit in effective national leadership in 
Pakistan. The U.S. has a long term interest in encouraging effective 
civilian governance in Pakistan, and a military leadership fully 
subordinate to democratic control. Our active pursuit of that long-term 
aspiration should be limited, however, by two facts: The first is that 
U.S. ability to effectively influence the evolution of civil-military 
relations in Pakistan is distinctly limited, to say the very least. The 
second is that the civilian political leadership in Pakistan has 
traditionally been both venal and incompetent, lacking both the moral 
will and the capacity to do what is necessary to address religious 
extremism and other overarching national challenges. While the military 
has not always been distinctly better in this respect, and in fact 
considerably worse in the foreign context, the fact is that the 
Pakistan Army is by far the most effective and capable institution in 
the country. And while the dysfunction at the heart of civil-military 
relations in Pakistan would take some time to describe, it is often 
driven by an understandable frustration on the part of the military 
with the ineffectiveness of its civilian leaders. Frequently, simple 
considerations of efficacy will continue to necessitate our dealing 
directly with the Army to get things done.
    Again, limited U.S. means will have to be calibrated in Pakistan 
against achievable goals in light of U.S. priorities going forward. 
That said, given overarching U.S. interests in the region, there will 
be many worthy candidates for U.S. assistance, both direct and 
indirect. Social cohesion and stability require Pakistan to address 
serious deficits in water, energy, and social services--particularly 
education. Pakistan's National Action Plan against terrorism will 
require material resources, as well as political courage and focus. 
There is a crying, long-term need to fully incorporate the Federally 
Administered Tribal Areas into settled Pakistan, and thus to eliminate 
long-standing terrorist safehavens. And Pakistan's conventional 
military forces will need to be maintained if we are to avoid quick 
recourse to nuclear weapons at a time when Kashmir remains a social and 
political tinderbox, and the threat of Indo-Pak war still hangs like an 
incubus across the region.
    In short, the U.S. dares not turn its back on Pakistan as it seeks 
to protect its serious national security interests in South-Central 
Asia. Wise policy going forward will require the U.S. to rebalance the 
overly Afghan-centric policies of the recent past, to accept, however 
reluctantly, those aspects of tactical Pakistani behavior it cannot 
change, and to focus instead on priority, long-term goals which can 
actually be achieved. Such a policy will often feel less than 
satisfying, but it is, in my view, the only responsible way forward.


    The Chairman.  Thank you. Thank you all for your testimony.
    I am going to defer to our ranking member to begin and 
again say that, look, I think the relationship with Pakistan is 
important. It has been transactional. It has moved to a more 
wholesome relationship. Now it is back into, I think, a very 
transactional relationship. I think in many ways they generate 
aid from the United States by their bad behavior and 
threatening issues relative to their nuclear program. But I 
would agree that it is a very important relationship and that 
is why we are having this hearing.
    Senator Cardin?
    Senator Cardin. Thank you, and let me thank all three 
witnesses for their testimony.
    Let me start by saying that this Congress is not going to 
take any definitive actions in regards to Pakistan before the 
elections. We are going to probably vote a continuing 
resolution that will just continue current policy, and we will 
not be taking up any vehicle that could affect--the Congress 
affect this relationship.
    So this hearing and I hope the testimony will help us 
understand what is likely to be considered as we move into the 
next administration, working with Congress as it relates to the 
policy with Pakistan.
    And I do not have any specific recommendation, but I want 
to sort of challenge this. Pakistan is one of the largest 
recipients of development assistance of any country from the 
United States. And as you pointed out, over a long period of 
time, we have seen marginal progress in regards to a warm 
relationship with the United States and the priorities that we 
believe are important in that bilateral relationship.
    They certainly have not been helpful in dealing with the 
broader issues of counterterrorism. They have been centric to 
their own country and not really engaged in helping us deal 
with the problems of terrorism against India or the Haqqani 
Network and may have been counterproductive, as Chairman Corker 
pointed out, in supporting these efforts.
    You point out in the testimony that their role in 
Afghanistan may be very marginal right now. They may not be 
able to do much for us in Afghanistan.
    Their anti-American rhetoric is extremely problematic.
    They have built up a nuclear capacity far beyond what was 
our believed understanding and show no signs of slowing down 
their nuclear weapon activity.
    They are developing relations with China, which we are 
watching, which is not necessarily counterproductive to us, but 
we wonder as to where they see their future.
    They are affecting our relationship with India, a country 
in which we are trying to develop a much more strategic 
alliance with.
    And their human rights record has been moving in the wrong 
direction.
    So why should we not consider a fundamental change in 
America's relationship with Pakistan and what danger is there? 
I want to get an answer to that, but it seems to me that they 
are going to fight terrorism in their own country. That is what 
they are doing now. They may not have the same capacity without 
help from the United States, and we could talk about that. But 
they are doing it for themselves. They are not doing it for the 
region. They are not doing it for the United States. What are 
we getting out of this? Why should we not look at taking a--my 
staff told me about $600 million a year we do in development 
assistance--and looking at countries in which we can get better 
return? Whoever wants to respond. Don't be bashful.
    The Chairman.  They agree with the assessment. They want to 
move on. [Laughter.]
    Senator Cardin. If we could have a brief response. Mr. 
Grenier, we will start with you.
    Mr. Grenier. Yes, Senator, I think that in fact we do need 
to review and, if you will, zero-base our relations with 
Pakistan. You have already pointed out the many areas in which 
the Pakistanis are not moving in concert with our views. In 
fact, there are certain areas where they are perhaps 
undermining U.S. interests. They do not see their problems in 
the way that we think they ought to, and that Pakistani 
perception is unlikely to change except slowly.
    That said, I think we do have an important stake, given the 
broadness of our interests.
    Senator Cardin. So how do we direct this? We have tried 
conditionality. That has not produced the type of results that 
we thought. You say start with a zero game. Well, a start with 
a zero game means we start with cutting off all of our 
assistance. Is that what you are suggesting?
    Mr. Grenier. No. I don't think that we would end up at 
zero, but I would recommend that we do a zero-based review. And 
I think at the end of the day, we would conclude that in fact 
it makes sense for us to support Pakistani military development 
particularly in counterterrorism in parts of this country that 
are----
    Senator Cardin. What do we get out of their 
counterterrorism? Remind me. Other than fighting the terrorists 
in their own country, what are we getting from them?
    Mr. Grenier. Well, sir, for many years, they have helped us 
in a very open-handed manner against Al Qaeda. Now, obviously, 
the importance of Al Qaeda----
    Senator Cardin. And we do operations that are regional. 
They continue to blast us for that, being offended that we are 
coming into their country to clean up the region.
    Mr. Grenier. Yes, sir. And I would say that there are often 
domestic political reasons for that.
    Senator Cardin. I hear that all the time. There comes a 
point where it becomes real when they say it is just for 
politics.
    Mr. Grenier. Well, again, I think the Pakistani perspective 
on these things is necessarily going to be different from ours.
    Senator Cardin. Dr. Markey, do you want to comment briefly?
    Dr. Markey. Just on the narrow question of security 
assistance and Pakistan's behavior on the counterterror front, 
I would agree with a lot of the frustration.
    There are two points that I make in my testimony about 
areas where they have been helpful and I think continue to be 
but not in ways that are necessarily public: air corridor into 
Afghanistan and drone strikes. There are protests by 
Pakistanis, and I agree with you that that is unhelpful. We 
would like to get to a place where we can publicly and 
routinely cooperate.
    Senator Cardin. I have been in closed briefings and I 
understand that there is a different perspective. But I am 
wondering how different it really is.
    Dr. Markey. I am sorry?
    Senator Cardin. How useful their quiet help to us is.
    Dr. Markey. Well, from someone who is working outside of 
government and watching drone strikes as they are reported in 
the media, my impression would be that though the tempo of 
those strikes has gone down, they do persist. They are useful. 
And on occasion, they are done, it seems from the outside, 
without their help, but often there are areas where these 
strikes----
    Senator Cardin. The drone strikes are very important. Do 
not get me wrong. And my question is how helpful have the 
Pakistanis been in regards to that. Some of this we cannot talk 
about in open session. I fully understand that. But I just 
raise the value issue. And you look at the investments we are 
making and whether there are not alternative ways to get some 
of this help without putting up with the support for activities 
that are counterproductive to U.S. interests.
    Dr. Markey. Right.
    Senator Cardin. Dr. Dalton, my time is over. So you have a 
minute in response.
    Dr. Dalton. Very briefly, Senator.
    I think that if you consider the security threats to 
nuclear weapons and the potential that there are still groups 
in Pakistan that might have interest in nuclear weapons and 
capability against the government--we have seen this in attacks 
on military facilities over time. It continues to be in our 
interest to make sure that those groups are not able to get 
anywhere near those weapons.
    Senator Cardin. So the more nuclear weapons they produce, 
the more money we have to give them?
    Dr. Dalton. Not necessarily money, but there is a 
pernicious effect there that Chairman Corker pointed out in 
terms of threats and rewards.
    The Chairman.  Yes. We reward their bad behavior by more 
money. So they will conduct more bad behavior.
    Senator Perdue?
    Senator Perdue. Thank you, Mr. Chairman. And I appreciate 
you calling this meeting. I think Pakistan is in a very 
important place geographically and from a time standpoint too.
    You know, in my career, I lived in Asia and worked a good 
bit in Pakistan in Karachi and Lahore and Islamabad. My friends 
in Pakistan have been very concerned about the internal 
politics there for a long time and what is going on next door 
in Afghanistan.
    When I think of Pakistan today, I think of a couple things. 
One is the Pashtun instability between India and Pakistan, the 
nuclear capability, which scares me to death frankly, given the 
anti-democratic ups and downs that you all three have talked 
about. I think of Afghan security and the Haqqani Network and 
what Pakistan is not doing regarding that effort. And then 
Pakistan is a terrorist haven.
    There are a couple of reports that have come out. October 
2014, the Pentagon report was the first ever to claim that 
Pakistan uses Afghanistan-focused insurgents as proxy forces 
rather than allowing their presence by providing sanctuary and 
support. That was a damning report.
    Then in June of this year in 2016, the Pentagon issued a 
report on the stability and security in Afghanistan, noting 
that Pakistan's vital role in reducing the regional threat 
posed by terrorists and insurgents has not been sustained.
    Then in August of this year, the Pentagon announced it 
would not certify Pakistan's action against the Haqqani Network 
as sufficient. What that means is that half of our aid over the 
next year, $300 million, will not be released, and it cannot be 
waived by the President, as has been past practice.
    And so all of a sudden now we are in a situation where, 
quite frankly, it is a very confused situation between the U.S. 
and Afghanistan in terms of what we are trying to communicate.
    And my question is really more in line with, Dr. Markey, 
what you said in a Foreign Policy article recently. You said 
many experts believe that the U.S. aid is often worse than 
ineffective. It is potentially counterproductive. I would like 
you to expand on that, but I would like the other two panelists 
to also help me with this issue right now of what is our 
objective with Pakistan in terms of the objectives we have of 
stabilizing Afghanistan. I am very concerned about their lack 
of cooperation there. We have plenty of DOD information here in 
public documents and a lot more in classified documents that we 
know they are not participating, and that is a dangerous threat 
in Afghanistan. We know the Pashtun issue creates instability 
between India and Pakistan. You know, there are 200 million 
people in Pakistan, and the average age is 23. Their birthrate 
is very high. This a potential hotbed for terrorism.
    So with all of those things bubbling around and our 
strategic interest in Afghanistan long-term, Dr. Markey, would 
you start it? I would like the three of you just to comment, 
though, if money is not the answer and we all agree that 
engagement is still purposeful, wherein lies the answer in 
terms of how we do--I agree with the zero-based approach on the 
money, $19 billion. But only $8 billion of that has actually 
been security efforts. About $11 billion has been humanitarian. 
So let us put it in perspective. It is not like this is a major 
battleground for us in terms of money, but on the other hand, I 
do not know what they are going to do given that we are cutting 
half of the money, I guess, that we would normally be sending 
them this year. Dr. Markey?
    Dr. Markey. Yes, very briefly I would say my points about 
the potential counterproductive nature of U.S. assistance to 
Pakistan relate to observations by many Pakistanis that they do 
not see necessarily where the resources are going. And many 
Pakistanis who may be in the more liberal, cosmopolitan crowd 
often perceive that the money has supported the more 
repressive, anti-democratic forces in their country and that 
this, they would say, has been happening over decades. So that 
is where the counterproductive aspects are.
    So what we need I would say broadly is a lot more clarity 
on precisely what our aims are, and for every dollar that flows 
from the United States to Pakistan, I would want to assign it a 
specific use rather than--I would say what we have now is a 
much more muddled perception----
    Senator Perdue. Would you agree that result versus use 
would be reasonable, that a specific result as opposed to a 
specific----
    Dr. Markey. Yes. What I would say particularly on the 
security side is that there should be three categories in the 
way we think about our assistance and the way that we condition 
it.
    Category one, things they want and we want. It was said 
earlier that they want to fight the Pakistani Taliban, those 
who are threatening them. We want to fight the Pakistani 
Taliban. Conditions in that area would be relatively limited 
because we want the same thing.
    Category two. We and they want similar things but they want 
to do it differently than we think is right. We have concerns 
about the way they treat civilians in war zones, things like 
that. Maybe improve their counterinsurgency capabilities. We 
would want to focus our money there, use stricter conditions.
    Category three. Areas where we want to tell them what we 
think they should do and we believe they are not doing. We hold 
our resources as inducements with limited expectations that 
those things will change but demonstrating that we are willing 
and eager to be partners with them, thereby not closing doors 
over the long run, but not delivering assistance for things 
that they do not do.
    Senator Perdue. Mr. Chairman, could I ask your forbearance 
and just ask Mr. Grenier to respond to that quickly? I am out 
of time, so I ask for brevity, please.
    Mr. Grenier. Senator, I very much agree with what Dan 
Markey has just said. When I talk about sort of zero-basing 
everything, I think we need to look at our assistance to 
Pakistan in a very tactical way, in the same way that Dan has 
just described, so that we have clear common purposes to which 
we are going to put specific aid and plans and deliverables for 
what that aid is actually going to produce. Now, in some cases, 
particularly when you are talking about broad economic support, 
it's very difficult to point to a specific result. I mean, the 
social problems in Pakistan are so vast, and the importance of 
our addressing them jointly is so important. But it is very, 
very difficult to actually see measurable progress over a short 
period of time.
    That said, I think we have to get away from the pattern 
that we have been in for so many years where we provide them 
with broad assistance, which is not accounted for in a very 
tactical way, and somehow expecting that we can use that as a 
tool, as a lever to get them to change aspects of their 
behavior that frankly they simply are not going to change.
    Senator Perdue. Thank you, Mr. Chairman.
    The Chairman.  Thank you.
    Senator Shaheen?
    Senator Shaheen. Mr. Markey, I want to follow up a little 
bit on that point because that seems like a fairly 
straightforward, relatively easy to pursue way to think about 
assistance to Pakistan. So why have we not done that?
    Dr. Markey. I think the short answer would be that the 
nature of our relationship with Pakistan changed very 
dramatically after 9/11, and there were a number of assistance 
programs that were quickly put into place, partly to encourage 
and partly at the time to reward Pakistan for some significant 
changes in its counterterrorism strategy. In many ways what we 
have done is we have layered on top of that over the past 15 
years other programs, and often as changes have happened on the 
ground in terms of the realities or our perceptions of what the 
Pakistanis are or are not doing we justify different programs 
for different purposes. So F-16's at times initially looked 
like a reward for a strategic shift by Pakistan on Al Qaeda. 
Subsequently, there became an effort to help them fight their--
to engage in counterinsurgency in the FATA. These 
justifications do not necessarily line up very effectively, and 
ultimately, as we have seen, they have not been convincing here 
at home.
    And so I think the problem is that history, history of 
changing relations and assistance programs maybe not keeping up 
with that, and a desire often to make a political case for 
specific pots of money, a political case that will appeal to 
the widest constituency but maybe is not internally consistent 
in a way that we would like to see.
    Senator Shaheen. When you say the widest constituency, are 
you talking about here in America as opposed to in Pakistan?
    Dr. Markey. In some cases both but mainly in terms of 
justifying it here at home. F-16's were justified on a number 
of grounds, for instance, including the desire to simply get 
face time with senior Pakistani leaders. Which of the 
justifications was actually true? Are they actually a useful 
counterinsurgency tool and so on? I think for different people, 
we have pulled out different reasons. And I think the patience 
has worn thin on that.
    Senator Shaheen. In my visits to Pakistan as Senator, one 
of the things I have heard everywhere I have gone has been the 
on again/off again nature of American assistance. Clearly the 
Pressler amendment had real implications for how Pakistanis 
viewed their ability to count on the U.S.
    Are there areas where we can look to our assistance and say 
that it has been effective, not military assistance, but 
economic assistance, and where Pakistanis have said, oh, yes, 
this has been helpful? One of the things that I have heard 
mentioned has been our help after the earthquake. That was one 
of the times when the Pakistani people really appreciated 
American support. Are there other things that we can cite and 
ways that we can look where we were successful and we should 
think about pursuing those kinds of efforts? Anyone?
    Dr. Markey. Yes. Humanitarian assistance in the aftermath 
of earthquakes and other natural disasters can pay a dividend. 
It is often short-lived, though, in terms of people's memories.
    Other examples of positive efforts by the United States. 
Support to higher education institutions like the Lahore 
University of Management Sciences. This is an area where 
generations now of Pakistan's leaders and best and brightest 
have been trained and which would not exist, I believe, if not 
for significant U.S. startup assistance at the beginning.
    Another example would be Pakistan's systems of canals and 
dams, which were built in the 1960s and 1970s with considerable 
global assistance, but much of it actually coming from the 
United States either directly or through multilateral lending 
institutions. And those kinds of things have changed the map of 
Pakistan. So it is not true to say that we have never done 
anything right by Pakistan or that we have not had a long-
lasting benefit to our assistance even on the civilian side.
    Senator Shaheen. Mr. Dalton, I only have a few minutes 
left, but I want to pursue your issue that you raised with 
respect to Pakistan's nuclear program and why that gives us a 
significant interest in what goes on there. And I wonder if you 
could give us your assessment how secure the program is, and I 
assume that it is in Pakistan's interest to make sure that none 
of the materials or bombs get into the hands of terrorists and 
that they are equally concerned about that as we are.
    Dr. Dalton. Thank you, Senator.
    I agree with that contention, that they have a strong 
interest in doing it. Nuclear weapons are one of the few 
symbols in Pakistan that there is political consensus on. Maybe 
that and cricket are the only other things that everybody 
agrees on. Nuclear weapons are great. They are sort of the 
crown jewels, and so they have undertaken I think fairly 
significant efforts to make sure that they are well protected. 
There is a professional division within the strategic plans 
division that addresses security. In my interactions with them, 
my sense is that they are a very professional organization. 
They understand the challenges that they face. They understand 
the threats that they face. And they have put in place I think 
as good a system as they can, recognizing the challenges that 
they face. The challenges are not insubstantial. We move 
nuclear material on our interstate system under heavy guard, 
big convoys. You cannot do that in Pakistan because the threat 
signature becomes too high. So they do face real challenges 
when it comes to moving material, keeping it secure, making 
sure that the personnel in the nuclear labs are not having 
sympathies with non-state groups and so forth. But I think to 
the extent that is observable from publicly available 
information, they have done as good a job as they can given 
their interests.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman.  Thank you.
    Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman, and thank you to 
the witnesses for your testimony today.
    Just a quick question on an initiative we have not spent 
too much time on this morning, North Korea. According to the 
Department of Defense's 2015 report on North Korea's military 
power, in addition to Iran and Syria, past clients from North 
Korea's ballistic missiles and associated technology have 
included Egypt, Iraq, Libya, Pakistan, and Yemen.
    The report also asserts that North Korea provided Libya 
with uranium hexafluoride, the form of uranium used in the 
uranium enrichment processes to produce fuel for nuclear 
reactors and nuclear weapons via the proliferation network of 
Pakistani nuclear scientist A.Q. Khan.
    More recently, however, media outlets in India have 
asserted that the relationship between Pakistan and North Korea 
persists today.
    So could the three of you, any of you, all of you address 
the relationship, if any, that Pakistan currently has with 
North Korea? And do you believe that there are ongoing illicit 
nuclear ties between these two nations today?
    Dr. Dalton. Thank you, Senator. Why do I not start and then 
if others want to join in.
    You are absolutely right that there is information to 
suggest linkages between the Pakistani nuclear program and 
missile programs in North Korea in the past. After the A.Q. 
Khan network was dismantled in the early 2000 time frame, most 
of those suggestions have gone away, and I think there is no 
sort of accepted public information, aside from what we have 
seen in Indian media accounts, to suggest that those linkages 
are ongoing.
    And I think if you look at the steps that Pakistan has 
taken since then to put in place a legal framework, to put in 
place an export control structure, a system to keep checks on 
the scientists so that they are not doing things that they are 
supposed to do, I think they have demonstrated a desire and 
interest to make sure that this does not happen again. They 
understand the damage that the Khan network did to their 
reputation, to their desire that their nuclear program be seen 
as a legitimate national security tool for the state. And so I 
think in that context, although I would not rule it out because 
there is a history, I also think it is not as likely today that 
we would see that kind of cooperation.
    Senator Gardner. Anybody else wish to address this?
    Mr. Grenier. Yes, Senator. I think there is an important 
point just looking in there as well because it is not an 
accident that the relations that Pakistan developed and 
specifically A.Q. Khan and the facilities that he controlled 
and developed with North Korea and also with Iran, that that 
occurred during the 1990s. And that was a period during which 
Pakistan was sanctioned about as heavily as it possibly could 
by the United States. It was very clear that Pakistan had a 
continuing national interest in developing nuclear weapons in 
order to maintain a threat against India, given the fact that 
there was no way that they could possibly match conventional 
military capabilities of India, and absent other means of 
pursuing what they saw as an overridingly important national 
security goal, they chose to get help where they could find it 
in this case, in some cases with North Korea and Iran.
    And I would say that to the extent that we can, we need to 
be very, very careful that we maintain at least some level of 
engagement with Pakistan. If we treat them as a pariah, we 
force them into a pariah corner, they are likely to behave as a 
pariah.
    Senator Gardner. Stepping back a little bit from that 
question to a more 30,000 foot level view, what is the 
relationship today between North Korea and Pakistan?
    Dr. Dalton. I think it is difficult to characterize. There 
is not a lot of public information. I did notice recently a 
news article that the North Korean airlines were not going to 
be permitted to fly into Pakistan any longer. It is not 
entirely clear what the basis for that is, but it does suggest 
that there is some trouble there and that the trade relations 
that they have enjoyed in the past may be souring in some way. 
So it is not clear that there is a strong relationship at this 
point.
    Senator Gardner. And I would just point out too that it is 
not just India that is concerned about this. There are articles 
in the Japan Times as well pointing to evidence of North Korean 
activities increasing between the two nations and the concern 
over proliferation activities. I think that is just something 
that we could continue to look at and make sure that our 
concerns are not overlooked there.
    In terms of China and Pakistan, the port opening, the $46 
billion economic corridor, how do you see that relationship 
growing, changing, and what do you think the likely long-term 
ramifications are of that growing relationship?
    Dr. Markey. I was in Pakistan back in February/March of 
this year, and principally to ask questions about the China-
Pakistan relationship and to learn more about it for my 
research. And I would say that it is perhaps the single most 
exciting thing that has happened in Pakistan in a semi-positive 
way for some time. Pakistanis that I met with were almost 
uniformly eager to talk about the opportunities that they 
perceive with respect to China, the kinds of investments that 
are planned and are, in fact, ongoing by the Chinese, the ways 
in which this may contribute to improving Pakistan's investment 
climate not just for Chinese activities but for other 
international investment, which has been extraordinarily poor 
in Pakistan, and the ways that ultimately that may contribute 
to growth and economic opportunity.
    So from a U.S. perspective, I think we have to take two 
looks at this. One is in the short- to medium-term, it is 
relatively positive. I mean, we have concerns about Pakistan's 
political stability, and part of that is related to its 
economic reality. And if they can get more investment, more 
jobs, economic growth, there are opportunities to build a 
country of now 200 million people, going on possibly 300 
million, 350 million people by mid century. These are things 
that should be supported. And so where the Chinese are paving 
the way, we probably should follow suit.
    Over the longer run, we are going to have some questions 
about what this is going to mean for China's profile in South 
Asia, China's profile leading into Central Asia and the rest of 
Eurasia. That will depend in many ways on how the United States 
perceives its broader relationship with China, and as we veer 
into possibly a more competitive relationship, China's 
expansion may come in some ways at our expense. That is how we 
are going to have to think about it. But that is the longer-
term strategic framework.
    In the short run, I perceive it as relatively positive.
    Senator Gardner. Thank you.
    Thank you, Mr. Chairman.
    The Chairman.  Thank you.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman, very much.
    Dr. Dalton, I am very concerned about the risk of nuclear 
war between India and Pakistan. Pakistan's development of low-
yield tactical nuclear weapons intended for use on the 
battlefield is especially dangerous. These weapons are meant to 
make it easier for Pakistan's military to pull the nuclear 
trigger. As a result, they will increase the probability that 
confrontations with India end up spiraling out of control and 
leading to nuclear catastrophe.
    Pakistan has continued to rapidly produce fissile material 
and it has refused to lift its veto on negotiations of a 
fissile material cutoff treaty at the Conference on 
Disarmament. These policies threaten to accelerate the nuclear 
arms race in the region.
    Pakistan actually has the ultimate responsibility for its 
dangerous nuclear policies, but the United States played a 
role, as has India. That is especially true with regard to the 
deal that we cut with India in 2008 in terms of their continued 
production of nuclear materials not under full scope safeguards 
and my warning at the time and others' that Pakistan would just 
continue to massively produce nuclear materials if that was 
going to be our policy. And so that is exactly what has 
happened.
    And now the administration has sought to further water down 
our nonproliferation policy by admitting India to the Nuclear 
Suppliers Group despite unambiguous guidelines that Nuclear 
Suppliers Group members should be parties to the 
Nonproliferation Treaty. Not only are we going to grant India 
an exemption from established global rules, but we are actually 
seeking to allow India to join the body that decides on those 
rules. Obviously, Pakistan will not react well to that, as we 
talk about their nuclear threat.
    So from your perspective, Dr. Dalton, do you believe 
removing the shackles on India's nuclear program worsen the 
nuclear competition in South Asia?
    Dr. Dalton. Thanks, Senator Markey.
    I think there are two points that I would offer in response 
there. The first point is the availability of information 
regarding the Indian nuclear program that has some credibility 
to it makes it quite difficult to come up with an assessment 
about whether there has been an actual increase in Indian 
fissile material production for nuclear weapons.
    Senator Markey. I am talking about the Pakistani response. 
Do you think it worsened the race for Pakistan? Did Pakistan 
respond to that?
    Dr. Dalton. Yes, absolutely.
    Senator Markey. And did that make the world more dangerous 
in that region?
    Dr. Dalton. Yes, absolutely.
    And I think the point that I would make there is whether 
there is a real reason for Pakistan to respond or their 
perception that their security environment is worsening is 
important. But for them, they have decided that things look 
bad. They need more weapons.
    Senator Markey. They said they would do it.
    Dr. Dalton. Yes.
    Senator Markey. And they did it.
    Dr. Dalton. Yes.
    Senator Markey. But it was in response to a policy that we 
put on the books. Is that correct?
    Dr. Dalton. I think that is correct.
    Senator Markey. Okay. Thank you.
    Now, Dr. Dalton, in your written testimony, you warned that 
Pakistani and Indian officials have expressed skepticism that 
the other side's nuclear threats are credible. You note that 
there is no shared sense of where nuclear redlines might be 
drawn. That is a very alarming statement in your testimony. If 
both sides doubt the deterrence of the other's threats, then 
nuclear deterrence may fail. What role should the U.S. play to 
help India and Pakistan prevent unintended nuclear war?
    Dr. Dalton. As you pointed out, Senator, the desire by 
Pakistan in having tactical nuclear weapons is to create a 
perception that there is a lower threshold for use. In their 
perspective, that enhances the deterrence value of those 
weapons and should discourage India from contemplating sort of 
limited conventional military operations, which the Indian army 
and others have been contemplating and exercising in recent 
years. I think that does create a condition where there is 
ripeness for deterrence failure. The Indian establishment does 
not believe that Pakistan would use tactical nuclear weapons on 
its own territory. They think that is not credible. Pakistani 
officials and experts think that it is not credible that India 
would use nuclear weapons in response to Pakistan.
    Senator Markey. Well, let me just stop you right there. So 
then we kind of get into this question of how do we deal with 
that issue. Pakistan's foreign ministry recently suggested that 
Pakistan would be willing to enter into a bilateral agreement 
with India that could bind each country not to conduct 
additional nuclear test explosions. Currently both countries 
maintain unilateral moratoria on nuclear testing. Neither are 
signatories to the CTBT. What are the prospects for India and 
Pakistan to agree on a bilateral non-testing agreement?
    Dr. Markey? I just wanted to say that word, ``Dr. Markey.'' 
My wife is a physician. She will not take my name. So I just 
wanted to say ``Dr. Markey'' to someone. [Laughter.]
    Dr. Markey. It is a pleasure to say ``Senator Markey.''
    Senator Markey. So how can we get the U.S. to help to get a 
bilateral nuclear test deal between these two countries?
    Dr. Markey. I have to say that my read on Pakistan's 
statements regarding this desire to make a deal with India 
strike me as kind of a diplomatic play on Pakistan's part.
    Senator Markey. You do not think they are sincere.
    Dr. Markey. I do not. Well, they may well be sincere, but 
they know that India is also justifying its nuclear posture 
because of India's concerns about China. And so they know that 
India will be reluctant and unlikely to take steps merely to 
match Pakistan. And so they know that they have a high ground 
on this issue and that India will not likely respond the way 
that they would like.
    Senator Markey. Do the other two witnesses agree with that, 
that ultimately it is not something that could ever bear fruit, 
that we could have a bilateral agreement between the two 
countries?
    Dr. Dalton. It is entirely possible. I think the context 
depends. In this instance, I agree with Dan that the effort was 
to try to show the Indians up when it comes to membership 
criteria for the Nuclear Suppliers Group. This was a diplomatic 
gambit. On the other hand, one could imagine that if there were 
a process by which both states could become eligible for NSG 
membership, this kind of thing where they would have to 
demonstrate something more than a unilateral test moratorium 
might become a requirement, in which case a bilateral agreement 
could be useful.
    Senator Markey. Okay. Thank you.
    Thank you, Mr. Chairman.
    The Chairman.  Thank you, sir.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. I thank the 
panel.
    Let me just say as a preface I think our overall posture 
towards Pakistan, in addition to the focus of this hearing, 
however, is much broader. And our stated policy is to support 
and strengthen a more democratic, stable, and prosperous 
Pakistan. And I know that many of my colleagues join me in the 
belief that to truly do so, Pakistan must take meaningful steps 
to strengthen the rule of law, democratic institutions, to 
empower civil society actors, and to uphold human rights. And 
while I recognize this panel may not be in the best position to 
specifically address those concerns, although they may have 
views on them, I think we would be remiss not to stress the 
importance of these needed reforms and actions.
    And I have previously raised concerns with Prime Minister 
Sharif about new laws that would hamper the ability of national 
and international NGOs that focus on democracy and human rights 
to successfully operate in Pakistan. And I think we need to 
give a renewed sense of urgency to the process that is going 
on--I think the ranking member mentioned it in his opening 
comments--because while we must focus on national security and 
cooperation with Pakistan against actors who threaten our 
interests and Pakistani national security and that of our 
allies in the region, including India, we cannot overlook the 
role of governance that civil society plays in developing long-
term security. And I hope at some point, Mr. Chairman, we will 
have some opportunity to focus on that as well.
    So I want to wave my saber to our friends in Pakistan about 
what is going on with national and international NGOs because 
when we talk about measurements of how we provide security 
assistance, in my mind, yes, there is security assistance, but 
there is also the longer range set of needs to develop a 
populace and civil society underpinnings of what the support 
for those security operations need to be. And I am worried 
about what is happening in Pakistan in that regard.
    Now, with that having been said, in July 2014, Prime 
Minister Sharif announced that all foreign fighters and local 
terrorists will be wiped out without any exception, which is a 
welcome declaration given the rampant terrorist activity in 
Pakistan particularly in the FATA and Waziristan regions. What 
we have seen, however, is a clear prioritization from Pakistani 
security forces of the Pakistani Taliban, which directly and 
almost exclusively threatens their interests directly. And I 
understand that to some degree.
    However, now that we have seen successes in those 
operations, I would like to ask the panel--I know this has been 
touched upon briefly, but I would like to go greater in depth--
do you believe that Pakistani security forces will actually 
take action against other groups, including the Haqqani 
Network, Lashkar-e-Taiba, Jaish-e-Mohammad? These networks pose 
a direct threat to the United States and our allies in the 
region, but Pakistan seems to have thus far had mixed results 
on carrying through its pledge to attack all foreign fighters. 
So if the answer was, well, we have a domestic challenge and we 
have got to take care of our domestic challenge before we can 
deal with the foreign fighters issues, now that that largely 
has been maybe not totally but largely significantly addressed, 
what is the excuse now? What are our expectations and what can 
we do as we talk about figuring out how we calibrate this 
assistance in a way that we understand that there are mutual 
interests here? What can we do to see those specific elements 
be pursued?
    Mr. Grenier. Senator, I wish there were a simple answer to 
a very direct and straightforward question. And I think that as 
we sort of peel back the layers of the onion in the likely 
Pakistani response to that question--and we have heard elements 
of that response any number of times--part of what they say is 
true. Part of it is sincere. Part of it is mendacious. Part of 
it is self-serving. And it is a great challenge to somehow 
compart all of that and figure out what is a proper way 
forward, knowing that our track record for influencing 
Pakistani behavior in these areas is very poor, to say the very 
least.
    I think it is true that as the Pakistanis focus as a matter 
of priority on those groups that primarily threaten them, they 
are legitimately very concerned about the possibility of 
different groups which currently do not cooperate with one 
another certainly against Pakistani interests in fact 
cooperating with one another in the future. I think that has 
been a great consideration for the Pakistanis in the context of 
North Waziristan. I think that they had to reach certain 
agreements with certain groups, perhaps to have included the 
Haqqanis before they felt that they were in a position to 
actually go into North Waziristan, invade that area, as they 
had promised to do for years.
    I think at the same time, though, it must be said that 
knowing the Pakistanis as I do, I strongly suspect that they 
are somewhat loathe to completely undercut the LeT even if it 
were possible for them in domestic political terms to do so, 
knowing that the LeT and Jaish-e-Mohammad, among others, are 
very potent potential weapons that they can use in the context 
of Kashmir.
    They are very concerned about the future of Afghanistan. 
Their tools for affecting events in Afghanistan are not 
particularly effective.
    Senator Menendez. So you are saying that their interests 
diverge from ours.
    Mr. Grenier. I am sorry?
    Senator Menendez. That their interests diverge from ours.
    Mr. Grenier. In a tactical sense, absolutely.
    Senator Menendez. Well, okay. So that gives me a lot of 
insight as to how I might deal with them.
    Dr. Markey.
    Dr. Markey. Yes. I would like to make two points.
    First, to the extent that they are likely or would ever act 
against some of these groups, I think we are less likely to see 
an all-out military push of the sort that we have seen against 
the TTP than we might see more law enforcement actions and 
because particularly LeT does enjoy a certain political clout, 
that they will be taking steps and they will be justifying 
these moves on the basis of trying to incorporate parts of 
these organizations within normal, nonviolent politics in 
Pakistan.
    And that gets back to your broader point about the need to 
promote a more democratic moderate Pakistan and one that is not 
inclined to turn to violent militarism or militancy I guess in 
so many different ways.
    And that is the second point I wanted to make, which is 
basically we need a Pakistan that is more democratic long term 
to counter the appeal of radical ideologies in that country. 
You get a legitimate, popularly elected government that can 
actually deliver. That is the only kind of permanent solution I 
would imagine to the appeal of a radical revolutionary Islam in 
the country. And the problem as I see it--I agree with you I 
think--is that while we have a veneer of a democratic process 
and we have had, I think fortunately, two rounds of national 
elections and hopefully upcoming a third, it has not seeped 
down and it has not become a democratic practice that is 
necessarily going to provide the kind of legitimacy that the 
country--that its leadership, that the state needs in order to 
be effective over the long run. So I am very concerned in 
exactly the same way.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman.  Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman.
    I thank our witnesses for really fantastic testimony.
    I want to drill down a little bit further on this question 
of what influences extremism, extremist groups in Pakistan. One 
terrorism expert who helped the government come up with its 
response to the Peshawar school attack said, quote, terrorism 
has different shades, but madrasas have been the nursery.
    I know there is no way to paint with a broad brush the type 
of learning and the type of teaching that happens in madrasas, 
but there are estimates suggesting that a large percentage of 
madrasas, many of which have been set up with Saudi money or 
Gulf money, are preaching a version of Islam that often becomes 
the foundation for extremist groups who come in to try to 
pervert those teachings into violence.
    And of course, the Pakistanis have recognized this by 
planning a campaign of registration for these schools. It has 
gone slowly, my understanding is, in part because it is 
difficult to pick out the ones that present problems versus the 
ones that are legitimately teaching Islam.
    I will start with you, Mr. Grenier, just to talk a little 
bit about this issue and how it plays into a broader set of 
U.S. policies, not just related to the way in which we fund 
Pakistan, but the way in which we partner with other 
governments that are putting money into those schools which in 
many ways are sowing the seeds, becoming the nursery of 
extremism.
    Mr. Grenier. Yes, Senator. It is a very, very difficult and 
intractable problem. And there are a lot of different aspects 
to it. I think it is important that you mentioned that this is 
something which, as we look at the phenomenon of radical 
madrasas in Pakistan, it is not just only a Pakistani problem. 
As you say, a lot of the money for construction of these 
madrasas comes from outside, and while there are government 
elites in other countries, perhaps particularly Saudi Arabia, 
who recognize that there is a problem with this, it is a very 
difficult political line for them to take with their own people 
who feel that they are simply promoting Islam. And what could 
possibly be wrong with that?
    You are right that the Pakistanis recognize the long-term 
threat here and there is now, as there has been in the past, an 
effort to try to license these schools, to try to change the 
curricula of these schools. Under the best of circumstances, 
that would be a very daunting project in a country with a 
population the size of Pakistan and the lack of resources that 
they have. But these are not the best of circumstances, and the 
Pakistani ability to pursue this kind of a program in a 
systematic way, in a persistent way is simply nowhere near what 
it really ought to be.
    And I think one of the other aspects to all of this that is 
extremely important is to recognize that these madrasas, 
whatever else they may represent, are also a very important 
social institution within Pakistan. Many of the children who 
attend these madrasas would not get three meals a day but for 
their attendance at these madrasas. And so the idea that you 
are simply going to go and close down noncompliant madrasas is 
simply a political nonstarter in many areas of Pakistan.
    Senator Murphy. But let me put it to you, Dr. Markey, in a 
simpler way. It is not a coincidence that as these schools have 
multiplied, as the Saudis in particular have sent billions of 
dollars into parts of Pakistan, that these terrorist 
organizations have been more successful than ever before in 
recruitment. I understand all of the difficulties in pulling 
this apart. But from the standpoint of U.S. policy, we should 
at least acknowledge that these two trend lines, the increasing 
money going in to fund these schools and the increasing ability 
to recruit, is not a coincidence.
    Dr. Markey. It is not a coincidence.
    I would just step back. There is also a history to this. It 
goes back in many ways to the Saudi global response to the 
Iranian revolution. Pakistan has been sort of a proxy 
battlefield for Iran and Saudi Arabia ever since. And so where 
Saudis have funded certain things and certain groups inside of 
Pakistan, the Iranians have at times done similar. And so you 
have seen bloodletting on both sides.
    One other related point. I would not want us to focus too 
closely only on madrasas or even Saudi-sponsored institutions, 
which include madrasas, but also to look at the public 
education system in Pakistan and the curriculum there, which 
has been widely cited in a number of different reports as 
having kind of anti-Western, anti-Indian, promoting a lot of 
narratives that are perhaps not quite the same as promoting 
terrorism but do create a narrative of Pakistan's place in the 
region, in the world that is one that is not helpful to us.
    And then one last point on this. There is some good news 
here. Many Pakistanis, in fact, I would think the vast, vast 
majority, simply want their kids to get a good education. And 
what you are seeing is actual disgust with a lot of the options 
that have been available, including public schools that have 
been failing, and investments by middle and lower income 
Pakistanis into private English language teaching schools, 
opportunities for their kids because what they are looking for 
is a way for them to actually get decent jobs and compete in a 
global marketplace, and they are willing to invest in that. So 
we should not think that this is something, whether madrasas or 
the school curriculum in the public schools, has the natural 
and national support of Pakistanis. They actually, I think if 
left to choose, would want something different.
    Senator Murphy. This is an incredibly uncomfortable 
conversation for us because it puts the United States in the 
position of appearing to decide what brand of Islam should be 
taught and what should not. And frankly, it is an inappropriate 
conversation for us, but it is important. It is important for 
us to untangle this because getting this right, trying to 
figure out the influences into extremism frankly is much more 
important to our battle against these groups than picking who 
we strike with drones and who we do not on the back end. So I 
appreciate your answers to the questions.
    Thank you, Mr. Chairman.
    The Chairman.  Thank you.
    Senator Cardin?
    Senator Cardin. Mr. Chairman, I just really wanted to make 
an observation. I thank the panel again for their testimony.
    It seems to me the Nuclear Suppliers Group might give us an 
opportunity. Dr. Dalton, I was just impressed by your 
observation. It is so difficult to get India and Pakistan to 
have substantive trust in each other and substantive 
discussions. And the Nuclear Suppliers Group--joining it--it is 
not just technical, it is also political. It may very well give 
an opportunity, looking a little bit longer term, to get a much 
better control over what is happening in India and Pakistan in 
regards to their nuclear programs. That is something I think 
the United States, working with some of our partners who are 
interested in nonproliferation--it may be an area where we can 
make some progress.
    Secondly, we have not talked about the Pakistani Diaspora. 
I think that also could be helpful to us in trying to establish 
a more constructive relationship between the United States and 
Pakistan.
    The last point that Senator Menendez raised on good 
governance I think is critically important. Just because you 
have elections does not mean you are going to have a government 
that is going to be respected by the people as taking care of 
their needs. And if you lose confidence, it does present the 
void where extremists can prosper. So I do think we need to put 
a much stronger priority on the governance issues in Pakistan.
    But, Mr. Chairman, I thought this was an extremely 
important panel and I thank you very much for calling the 
hearing.
    The Chairman.  Well, thank you. And I want to thank each of 
you for being here and sharing your expertise and giving us 
additional insights. You know, I do not think we spend near 
enough time here. The way the processes work, the 
appropriations process happens in a very swift manner, governed 
by a few. I am in no way criticizing them. It is just the lack 
of staffing that exists there. The authorizing committees, 
which have the ability to deal with folks like you in a much 
more in-depth manner and others, really do not play the roles 
here in the United States Senate that they should. And I think 
much of the insight here, as we try to move ahead with aid 
issues in the future, is going to be very useful. But thank you 
for being here. I thank you for your testimony.
    People will want to ask questions in writing. If we could, 
we will leave the record open, without objection, till Monday. 
If you all could respond fairly quickly, we would appreciate 
it. Again, thank you for spending time with us. Thank you very 
much.
    The meeting is adjourned.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]

                              ----------                              


              Additional Material Submitted for the Record

           responses to additional questions for the record 
            submitted to dr. daniel markey by senator rubio
Human Rights


    Question 1.  The State Department's recently released International 
Religious Freedom Report focused at length in the executive summary on 
Pakistan's deeply troubling blasphemy laws noting that more than 40 
people remain on death row for blasphemy in Pakistan, many of whom are 
religious minorities. In fact, Pakistan has the highest number of 
blasphemy convictions worldwide. Given other strategic interests with 
Pakistan, to what extent to you think human rights and religious 
freedom issues are sidelined or marginalized in our own diplomatic 
efforts? In that same vein, the bipartisan, independent U.S. Commission 
on International Religious Freedom has repeatedly recommended that the 
President designate Pakistan a Country of Particular Concern for its 
severe violations of religious liberty. Successive administrations have 
failed to do so despite the realities on the ground especially as it 
relates to the minority Christian and Ahmadi Muslim communities. How do 
you think Pakistan would respond to being designated a CPC? Are we 
using all of the leverage at our disposal to advance these fundamental 
human rights?

    Answer. Pakistan's religious minorities clearly face enormous 
difficulties as enumerated in this question. Although I am unfamiliar 
with the specific procedures involved with designating Pakistan a CPC, 
I would not be surprised that successive administrations have 
determined that doing so would hold relatively little prospect of 
changing the reality on the ground inside Pakistan. In other words, in 
this case as in others, U.S. leverage to change Pakistan's domestic 
policies is limited. Moreover, on an issue that raises enormous passion 
within Pakistan--that of the blasphemy laws--pressure from the United 
States might even have some potential to make a bad situation worse. 
Pakistanis who would like to see the blasphemy laws changed or 
abolished might find themselves tarnished by association with the 
United States rather than strengthened by the outside pressure. It is 
noteworthy that even nominally liberal Pakistan Peoples Party 
governments have failed to make serious progress in this area and that 
some of their leaders, including slain Governor Salman Taseer and 
Minister for Minority Affairs Shahbaz Bhatti, were specifically 
targeted for their positions on the blasphemy issue. This raises 
serious questions about whether the battle over blasphemy laws and the 
oppression of minorities in Pakistan can be won by way of coercive 
policies leveled at Pakistan's government, given that changes will 
require a wider transformation of Pakistani society through education 
and positive social mobilization that is exceptionally difficult to 
engineer from the outside. Shedding light on Pakistan's problems, as 
the International Religious Freedom Report does, makes U.S. concern 
apparent to Pakistani, American, and global audiences. This is 
important and constructive. In addition to that publicity, however, it 
is at least arguable that quietly lending support--technical, 
financial, moral--to Pakistani groups advocating for change will be a 
more constructive approach than coercion of Pakistan's government.


    Question 2.  Pakistan's Supreme Court recently set a hearing date, 
the second week of October, for the final appeal of Asia Bibi, the 
Christian mother of five sentenced to death for allegedly committing 
blasphemy. This appeal is the only thing standing between her and 
execution. This case is systematic of the abuses suffered by Pakistan's 
minority faith communities and evidence of how the blasphemy laws are 
often abused and the most vulnerable suffer as a result. U.S. diplomacy 
to date has been unsuccessful in yielding a positive outcome in her 
case. Are you following this case? What more could the U.S. government 
be doing to advocate for her release and others like her while not 
putting them in further jeopardy given the internal dynamics in 
Pakistan?

    Answer. As I wrote in my answer to the first question, the 
challenge for influencing Pakistan's domestic policies on sensitive 
matters like the case of Asia Bibi is that even if the United States 
could place greater pressure on Pakistan's government, the threat to 
Pakistani minorities is widespread in Pakistani society, not simply the 
product of current government policies. Unfortunately, even recent 
Pakistani governments inclined to take constructive action to protect 
minority rights have stumbled with implementation. U.S. diplomats 
should express American concerns about Asia Bibi's fate and should make 
it clear that how Pakistan handles her case (and other similar issues) 
will directly influence how Americans, including powerful policymakers, 
perceive Pakistan. Americans are, as I noted in my testimony, already 
extremely skeptical about the value of partnership with Pakistan, so 
Pakistani leaders must appreciate that the Asia Bibi case will have 
international ramifications. Yet it is an open question--given the 
internal dynamics in Pakistan noted in this question--whether 
conditioning U.S. assistance or taking other coercive steps aimed at 
Pakistan's ruling government would strengthen the hand of Asia Bibi's 
advocates or play to the advantage of her detractors.


                               __________



                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
